Audit Report




OIG-06-019
Audit of the Community Development Financial Institutions
Fund’s Fiscal Years 2005 and 2004 Financial Statements


December 21, 2005




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 21, 2005


            MEMORANDUM FOR ARTHUR A. GARCIA, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                   William H. Pugh
                                    Deputy Assistant Inspector General
                                       for Financial Management and Information
                                       Technology Audits

            SUBJECT:                Audit of the Community Development Financial Institutions
                                    Fund’s Fiscal Years 2005 and 2004 Financial Statements


            I am pleased to transmit the attached audited Community Development Financial
            Institutions Fund (CDFI) financial statements for fiscal years 2005 and 2004. We
            contracted with the independent certified public accounting firm KPMG LLP to audit
            the financial statements of CDFI as of September 30, 2005 and 2004 and for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 01-02, Audit Requirements for
            Federal Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,
                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and
                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated October 31, 2005 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
COMMUNITY DEVELOPMENT FINANCIAL
       INSTITUTIONS FUND

        ANNUAL REPORT
         September 30, 2005
                                            TABLE OF CONTENTS


Message From the Director........................................................................................................................3


Message From the Deputy Director For Management/Chief Financial Officer ........................................5


Community Development Financial Institutions Fund Overview .............................................................7


Management’s Discussion and Analysis..................................................................................................12
              Community Development Financial Institutions Program ......................................................12
              New Markets Tax Credit Program...........................................................................................18
              Bank Enterprise Award Program.............................................................................................21
              Expanding Native Opportunity: Native Initiatives ..................................................................24
              Fund Actions Pertaining to Hurricane Katrina ........................................................................26
              Status of Financial Management..............................................................................................27


Independent Auditors’ Reports ................................................................................................................33


Financial Statements and Notes ...............................................................................................................40


Appendices
              Appendix A: FY 2005 CDFI Fund Award and Allocation Activities .............................. App A
              Appendix B: Total Fund Awards From Inception ............................................................ App B
              Appendix C: Glossary of Terms ....................................................................................... App C
(This page intentionally blank)
It is with great pleasure that I present the United States Treasury, Community Development
Financial Institutions Fund's Performance and Accountability Report for the 2005 fiscal year.
Through the Fund's mission of expanding the availability of credit, investment capital, and
financial services in distressed urban and rural communities, the Fund continues to deliver
programs and funding that provides deliverable results to the communities that are in the greatest
need.

The vision I set forth for the Fund at the beginning of the 2005 fiscal year was to continue
enhancing the channels for educational outreach to our constituencies while streamlining our
internal processes. It is a privilege for me to recognize the daily passion and dedication
demonstrated by the Fund staff as they continue to enhance program efficiencies, expand the
program functionally and assist the Fund's constituents in achieving their strategies in their
respective communities.

In conjunction with the fiscal year 2006 budget proposal was the introduction of the President's
proposed Strengthening America's Communities Initiative as an innovative economic and
community development strategy to help strengthen America's transitioning and most needy
communities. The President's initiative, proposed in his fiscal year 2006 budget, would
consolidate 18 existing Federal programs, simplify access to the Federal system, set new
eligibility criteria, and establish strong accountability standards -- all in exchange for the flexible
use of funds so that communities most in need would be assisted. The proposed $3.71 billion
unified grant-making program would target assistance so as to achieve greater results for low-
income people and economically distressed areas.

As an active participant with many of my colleagues across the Administration, we defined the
details of the President's proposal while educating many agencies on the work that the Fund does
and the impact its awardees and allocatees make in their respective communities. "Business as
Usual" was the mode of operation with which I led CDFI Fund staff in 2005 and I am pleased to
report that all program awards were delivered on schedule. The CDFI Fund's outlook for the
2006 fiscal year will be for the efficient delivery of all program awards as funding is
appropriated.

The CDFI Fund's 2005 Performance and Accountability Report marks the eighth consecutive
year in which the auditors rendered an unqualified opinion on the CDFI Fund's financial
                          o material weaknesses, reportable conditions or areas of non-
                           regulations were identified.




Director




                                           Treasury, CDFI Fund, FY 2005 Accountability Report   Page 3
(This page intentionally blank)
        MESSAGE FROM THE DEPUTY DIRECTOR FOR
        MANAGEMENT / CHIEF FINANCIAL OFFICER
Fiscal Year 2005 was a year of significant challenges which were successfully resolved due to the
dedication of the Fund staff. The Administration’s proposed “Strengthening America’s
Communities Initiatives”, whereby no new program funding for the Fund was provided in the FY
2006 budget proposal, did not deter the Agency from meeting its mission to provide access to
capital and financial services to underserved rural and urban areas within America during the past
year.

The Fund made over $48 million in awards to 164 organizations and allocated $2 billion in tax
credits to 41 organizations. What is remarkable is that these awards and allocations were done in
a seamless and timely manner using the Fund’s electronic award and tracking system, despite
numerous key staff vacancies throughout the Fund for much of the fiscal year. Full
implementation of this “paperless” system has contributed to the Fund maintaining a “green”
rating in the “E-Government” initiative within the President’s Management Agenda.

Fiscal Year 2005 also marked the eighth consecutive year in which the Fund’s auditors rendered
an unqualified opinion on our financial statements in which no material weaknesses, reportable
conditions or material non-compliance with laws and regulations were identified. Further, this
was the fourth year that the Fund was able to provide audited financial statements within 45 days
after its fiscal year end. These two accomplishments even with staffing shortages is testament to
the Fund’s strong internal control environment and the hard work by its many dedicated
professionals.

Another accomplishment during the year was the full implementation of a web-based system, the
Community Investment Impact System (CIIS), that allows for the collection of data from Fund
awardees –. Data collected through FY 2005 provides the specific location and characteristics of
each loan in an awardee’s portfolio and allows the Fund to measure impact at the census tract
level and compare awardees’ lending behavior to that of traditional financial institutions. This
management information system is important because CIIS enables the Fund to measure its
performance against its targets and demonstrate how and where the Fund’s dollars are used. This
impact performance management system is unique within the community development industry.

The Fund will continue its commitment to support the Administration’s efforts for economic
growth and job creation in the coming year. We have a solid management infrastructure in place
and have demonstrated the resolve to meet any new challenges.




Owen M. Jones
Deputy Director for Management /
Chief Financial Officer




                                         Treasury, CDFI Fund, FY 2005 Accountability Report   Page 5
(This page intentionally blank)
                         COMMUNITY DEVELOPMENT FINANCIAL
                            INSTITUTIONS FUND OVERVIEW

Overview                                                       financial services to underserved populations and
                                                               communities in the United States.
The Community Development Financial Institutions
Fund (the Fund) was created for the purpose of                 The Fund achieves its purpose by promoting access to
promoting economic revitalization and community                capital and local economic growth through its: 1)
development through investment in and assistance to            CDFI Program by making funding available to
community development financial institutions                   financial institutions which are certified or eligible for
(CDFIs).                                                       certification as CDFIs that provide loans, investments,
                                                               financial services and technical assistance to
Over the course of FY 2005, the Administration and             underserved populations and low income
the Office of Management and Budget proposed to                communities; 2) New Markets Tax Credit (NMTC)
consolidate a number of community and economic                 Program which provides investment authority to
development programs within the Department of                  certified community development entities (CDEs)
Commerce in a proposal called the Strengthening                which use federal tax credits to attract private capital
America’s Communities Initiative (SACI). Under this            investment in low-income communities; 3) Bank
proposal, the CDFI related programs, including                 Enterprise Award (BEA) Program by providing an
certification of CDFIs, would have been consolidated           incentive for banks to invest in low-income
within the Department of Commerce under a new                  communities and in CDFIs; and 4) Native Initiatives,
program design. Accordingly, the Fund limited                  by taking action to provide financial assistance,
several initiatives in anticipation of the consolidation,      technical assistance, and training to Native CDFIs and
most notably suspending its receipt of new                     other Native entities proposing to become or create
applications for certification as a CDFI. In other             Native CDFIs. In addition, the Fund has the authority
respects, the Fund administered the appropriations             to conduct studies, offer training and provide
received in FY 2005 with a “business as usual”                 mechanisms to increase liquidity of CDFIs. In FY
approach for applications and awards within its                2005, the Fund has initiated a contract that will result
respective funding rounds. This SACI initiative was            in evaluations of certain of its programs, described
not adopted in FY 2005.                                        below.

                                                               Since its creation, the Fund has made $777 million in
Authorizing Legislation                                        awards to CDFIs, banks, and other qualified
                                                               organizations, and provided allocations of NMTCs
The Fund was established as a bipartisan initiative            which will attract private sector investments totaling
under the Riegle Community Development and                     $8 billion.
Regulatory Improvement Act of 1994. Under the
Community Renewal Tax Relief Act of 2000, the
NMTC Program was authorized and the Secretary of
                                                               Serving Low Income Communities
the Treasury has delegated certain administrative              Through CDFI and NMTC Programs
responsibilities in implementing that program to the
Fund.                                                          CDFIs are specialized financial institutions that work
                                                               in market niches which are underserved by traditional
Fund Mission                                                   financial institutions. Only financial institutions
                                                               certified or certifiable as CDFIs can receive funding
                                                               under the Fund’s CDFI Program and Native Initiatives
The Fund’s vision is an America in which all people
                                                               (certain other entities can also receive an award under
have access to affordable credit, capital and financial
                                                               Native Initiatives).
services. Its mission is to expand the capacity of
financial institutions to provide credit, capital, and




                                                            Treasury, CDFI Fund, FY 2005 Accountability Report   Page 7
CDFIs provide a unique and wide range of financial            for certification as a CDFI in light of the planned
products and services which help their customers build        consolidation of its CDFI related programs into the
wealth and achieve the goal of participating in the           Department of Commerce under the Strengthening
homeownership society. While the types of products            America’s Communities Initiative (SACI).
are similar to those provided by larger, mainstream
financial institutions such as mortgage financing for         Growth in Number of Certified CDFIs and CDEs
low-income and first-time homebuyers, small business
lending and lending for community facilities, it is the
role of CDFIs in lending to customers and in markets               End of FY            CDFIs              CDEs
not served by traditional financial institutions, to                 1997               190
provide terms that are more flexible than those                      1998               262                  -
provided by traditional financial institutions. CDFIs                1999               334                  -
must provide services that help ensure that credit is
used effectively, such as technical assistance to small              2000               415                  -
businesses and credit counseling to consumers. CDFIs                 2001               468                31
include regulated institutions such as community                     2002               625               541
development banks and credit unions, and non-                        2003               694              1,184
regulated institutions such as loan funds and venture
capital funds, among others.                                         2004               728              1,585
                                                                     2005               750              1,954
A CDE is a domestic corporation or partnership that is
an intermediary vehicle for the provision of loans,           CDEs are located in 49 states, the District of Columbia
investments, or financial counseling in low-income            and the U.S. Virgin Islands. CDFIs are located in
communities through the NMTC Program. Benefits of             every state the District of Columbia, Puerto Rico and
being certified as a CDE include being able to: (1)           the Virgin Islands.
apply to the Fund to receive a NMTC allocation to
offer its investors in exchange for equity investments        Summary of Fund Programs
in the CDE and/or its subsidiaries; or (2) receive loans
or investments from other CDEs who have received a            The Fund’s programs are summarized below. More
NMTC Allocation.                                              detailed information on each program can be found in
                                                              the related section of the Program Discussion and
Certification of Community                                    Analysis section of this report.
Development Financial Institutions and
                                                              Community Development Financial
Community Development Entities                                Institutions Program: Performance Goal: Build
                                                              the capacity and coverage of CDFIs to provide credit,
Financial institutions meeting six statutory and              capital, and related services to otherwise underserved
regulatory criteria (as listed in the “Community              markets.
Development Financial Industry” section) may be
certified by the Fund as a CDFI, thus enabling it to          In FY 2005, the Fund provided direct financial
qualify for funding under the agency’s CDFI related           assistance to CDFIs and entities that plan to become
programs.                                                     CDFIs through two CDFI Program components:
CDEs must be certified to receive an allocation of tax        •   The Financial Assistance Component provided
credits. CDEs operate as investment vehicles for the              financial and technical assistance awards to the
NMTC Program. Many CDEs create multiple                           more established CDFIs that have comprehensive
subsidiary CDEs to own specific assets or classes of              business plans for creating community
assets, and thus the number of CDEs has grown very                development impact and that demonstrate the
large even though the Fund has made only 170 awards               ability to leverage private sector sources of capital.
to 156 different allocatees.

In FY 2005, the Fund did not accept new applications



Treasury, CDFI Fund, FY 2005 Accountability Report   Page 8
•   The Technical Assistance Component provided              Native Initiatives is the term used to describe the Fund
    technical assistance grants to CDFIs and entities        programs designed to overcome barriers preventing
    proposing to become CDFIs in order to build their        access to credit, capital and financial services in
    capacity to advance community development and            Native American, Alaskan Native and Native
    meet capital access needs in their target markets.       Hawaiian communities. These programs are targeted
    The Technical Assistance Component could also            to increasing the number and capacity of existing or
    be accessed by larger and more established CDFIs         new CDFIs serving Native Communities and include
    to support their continued development.                  complementary training initiative that seeks to foster
                                                             the development of Native CDFIs. FY 2002 was the
New Markets Tax Credit Program: Performance                  first year in which awards were made under this
Goal: Attract private sector capital into low-income         initiative.
communities through CDEs.
                                                             CDFI Program Evaluation
The NMTC Program is intended to spur the
investment of $15 billion in new private sector capital      During FY2005, the Fund awarded a competitive
(raised over seven years) into a range of privately          contract for an independent evaluation of the CDFI
managed investment vehicles that make loans and              Program, and the CDFI certification process. The
equity investments in businesses. By making an               evaluation is the first since the inception of the Fund.
equity investment in a CDE, individual and corporate         Given the number of awards that the Fund has made
investors can receive a NMTC worth approximately 39          since its inception, the Fund seeks to identify and
percent of the amount invested over the life of the          measure the benefits these awards have had within the
credit, in present value terms.                              CDFI industry. The Fund expects that the independent
                                                             assessment of these programs will facilitate better
Calendar Year 2002 was the first year in which               support of CDFIs through refined program design.
applications for tax credits were submitted to the Fund      Additionally, the assessment will comply with the
and, as of the end of FY 2005, three allocation rounds       Office of Management and Budget (OMB)
had been completed providing allocations of tax              requirement for all federal agencies to have an
credits which will support, in the aggregate, equity         independent evaluation of its program performance
investments of $8 billion. Two more allocation rounds        (i.e., the Program Assessment Rating Tool - PART).
remain which will allocate tax credits supporting $7
billion in investor capital.                                 Detailed information on the programs administered by
                                                             the Fund are can be found in the related section of the
Bank Enterprise Award Program: Performance                   Program Discussion and Analysis section of this
Goal: Increase FDIC-insured institutions’ investments        report.
in community development and economic
revitalization in distressed communities.
                                                             Allocation of Funding
The Bank Enterprise Award (BEA) Program
recognizes the key role played by traditional financial      The Fund’s appropriations are characterized as
institutions in community development lending and            program funds and administrative funds. Program
investing. It provides incentives for regulated banks        funds consist of amounts to be used for program
and thrifts to invest in CDFIs and to increase their         awards (grants, loans, other investments, and training
lending and provision of financial services in the           contracts); administrative funds are amounts used to
nation’s most economically distressed communities            administer all programs (including the NMTC
(those with high poverty and unemployment).                  Program).

Native Initiatives: Performance Goal: Build the              In addition, the Secretary has delegated authority for
capacity and coverage of CDFIs and other institutions        the Fund to allocate tax credits under the NMTC
to provide credit, capital, and related services to          Program raising up to $15 billion in private capital
Native Communities.                                          equity through FY 2007. Allocation authority to issue
                                                             tax credits is not a funding source and so is not




                                                          Treasury, CDFI Fund, FY 2005 Accountability Report   Page 9
 reflected in the below chart. NMTC funding as shown
 represents the amounts needed to administer the
 program.

 Sources of Funding                                                                  Programs Funded in FY 2005
                                                                                        (amounts in millions)
 Funds are appropriated annually to the Fund for two                                  NA Initiatives
                                                                                                                  CDFI Program
                                                                                                                     $40.9
 fiscal years. Each year’s available funding includes                                     $5.8
 unobligated funds from the prior year (“carryover”
 funding, if any) plus the current budget authority.                     NMTC
                                                                      Program $4.4
 Sources of funding also include borrowing authority to
 fully fund loans awarded.
                                                                       BEA Program
                      Sources of Funding                                  $11.2
                         (amounts in millions)

                                          FY 2005 FY 2004

  Appropriations (1)                        $ 55.6    $60.6
  Use of No-Year Account (2)                   4.0       -
  Amounts Deobligated                          1.2         .1
  Carryover from Prior Year                     .8     25.0
  Borrowing Authority Used                     3.6      3.6

  Total Sources of Funds                    $ 65.2    $89.3

  (1) Includes $.5 million pertaining to upward subsidy
  adjustment.
 Uses   of Funding
  (2) The No-Year account consist of investment income,
  and proceeds from the redemption of investments.
 During FY 2005, the Fund used funding of $62.3
 million as follows:



                        Uses of Funding
                        (amounts in millions)

                                       FY 2005       FY 2004

Programs Funded
 CDFI Program                             $40.9      $56.9
 BEA Program                               11.2       18.4
 NMTC Program                               4.4        38
 Native Initiatives                         5.8       10.2

    Total Programs Funded                $62.3       $89.3
Amounts Not Obligated (1)                    2.9         .8

   Total Funding Used                    $65.2       $89.3

Note – administrative funds of $13.5 million and $12.3 million have
been allocated to the above programs for FY 2005 and 2004,
respectively.

 (1) – FY 2005 amounts not obligated includes $2.1 million
earmarked for an evaluation of the NMTC Program.



 Treasury, CDFI Fund, FY 2005 Accountability Report       Page 10
ORGANIZATION OF THE FUND

The Fund’s organization structure consists of a Director, a Deputy Director for Policy and
Programs, a Deputy Director for Management / Chief Financial Officer, Legal Counsel, and
various program and administrative support offices.

The organization chart of the Fund is shown below.



COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND
                SEPTEMBER 2005



                                       Director



                                                        Financial Strategies & Research

      Legal Counsel

                                                          Public & Legislative Affairs


      Deputy Director                                           Deputy Director for
  for Policy and Programs                                        Management/CFO

         CDFI Programs                                               Financial
           Manager                                                   Manager

     New Markets Tax Credit                                     Chief Information
    Program Manager (CDFI)                                           Officer

                                                             Grants Management
       Program Operations                                         Manager
            Advisor
                                                             Compliance,
                                                             Evaluation and
                                                             Monitoring Manager

                                                                  Administrative
                                                                    Officer


                                Treasury, CDFI Fund, FY 2005 Accountability Report   Page 11
                           PROGRAM DISCUSSION AND ANALYSIS

                        COMMUNITY DEVELOPMENT FINANCIAL
                             INSTITUTIONS PROGRAM

Overview of the CDFI Program                                   The certification of organizations as CDFIs has been a
                                                               long-standing goal of the Fund. The majority of
Through the Community Development Financial                    certified CDFIs as of the end of FY 2005 are loan
Institutions (CDFI) Program, the Fund uses federal             funds and credit unions. Far smaller percentages are
resources to invest in and build the capacity of CDFIs         banks, thrifts and depository holding companies, and
to serve low-income people and communities lacking             venture funds.
adequate access to affordable financial products and
services. The Fund provides monetary awards for                                   Breakdown of Types of
financial assistance (FA) and technical assistance (TA)                               Certified CDFIs
grants through its CDFI Program. CDFIs use FA                                                             Bank, Thrift
                                                                              Venture
awards to further goals such as:                                               Fund
                                                                                                          or Holding
                                                                                                           Company
                                                                                3%
    • Economic development (job creation, business                                                           11%

      development, and commercial real estate                                    Loan Fund
                                                                                                                 Credit Union
                                                                                    67%
      development);                                                                                                 19%
    • Affordable housing (housing development and
      homeownership); and
    • Community development financial services
      (provision of basic banking services to                  The above percentages are very similar to those as of the
      underserved communities and financial literacy           end of the prior year. By the end of FY 2005, the Fund
      training).                                               had certified 750 CDFIs serving both rural and urban
                                                               areas in all states and the District of Columbia, Puerto
Certified CDFIs                                                Rico, and the Virgin Islands.

A certified CDFI is one that has been certified by the         Not surprisingly, the most populous states have the most
Fund as meeting all of the following statutory and             certified CDFIs: 28 percent of certified CDFIs are
regulatory criteria:                                           headquartered in the five most populous states (New
                                                               York, Texas, North Carolina, Florida and California).
    •    Has a primary mission of promoting
         community development;                                CDFIs include banks, credit unions, loan funds, and
                                                               venture capital funds, with each providing a different
    •    Serves principally an investment area or targeted
                                                               mix of products geared to reach specific customers, as
         population;
                                                               follows:
    •    Is an insured depository institution, or makes
         loans or development investments as its
                                                                   •   Community development banks are for-profit
         predominant business activity;
                                                                       corporations which provide capital to rebuild
    •    Provides development services (such as
                                                                       economically distressed communities through
         technical assistance or counseling) in
                                                                       targeted lending and investment;
         conjunction with its financing activity;
                                                                   •   Community development credit unions are
    •    Maintains accountability to its target market; and
                                                                       non-profit cooperatives owned by members
    •    Is a non-governmental entity and cannot be                    which promote ownership of assets and
         controlled by any governmental entities.                      savings and provide affordable credit and retail
                                                                       financial services to low-income people;
In addition to seeking certification to receive financial
                                                                   •   Community development loan funds (usually
and technical assistance from the Fund, organizations
                                                                       non-profits) provide financing and
pursue CDFI certification in order to leverage funds
                                                                       development services to businesses,
from non-federal sources such as banks, foundations,
                                                                       organizations and individuals in low-income
and state and local governments.

Treasury, CDFI Fund, FY 2005 Accountability Report   Page 12
          urban and rural areas and can be further                      •    Individuals who are provided affordable
          categorized based on the type of client served:                    banking services including checking and
          micro-enterprise, small business, housing and                      savings accounts, alternatives to predatory
          community service organizations; and                               financial companies, and mortgages and other
    •     Community development venture capital funds                        kinds of loans.
          are both profit and non-profit organizations
          which provide equity and debt-with-equity
          features for businesses in distressed
                                                                    Financial Assistance (FA) Component
                                                                    The FA component is by far the largest component of
          communities.
                                                                    the program. Prior to FY 2003, the FA component was
                                                                    referred to as the Core Component. Through the FA
CDFIs serve diverse populations: 83 percent of CDFIs
                                                                    component, the Fund invests in CDFIs that are able to
serve racial or ethnic minorities, with the breakdown as
                                                                    demonstrate that they have the financial and
follows:
                                                                    managerial capacity to provide affordable and
                        Percentage of CDFIs Serving                 appropriate financial products and services that
                        Racial and Ethnic Minorities
                                                                    positively impact their communities, are viable
                  78%
        80%                  69%
                                                          74%       financial institutions, and use and leverage Fund
        70%
                                                                    dollars effectively.
        60%                            48%      47%
        50%                                                         FA awards are made in the form of equity investments,
        40%                                                         loans, deposits, or grants, depending on applicant
        30%                                                         needs, and must be matched by the applicant with
        20%                                                         funds of the same type from non-federal sources. FA
        10%                                                         awards enable CDFIs to leverage private capital to
        0%                                                          respond to demand for affordable financial products and
              Black or Hispanic or   Asian    Native    Other
               African   Latino              American
                                                                    services in economically distressed markets and by low-
              American                                              income families. CDFIs respond to this demand through
                                                                    the provision of loans, investments, training, technical
CDFI Customers                                                      assistance and basic financial services such as checking
                                                                    or savings accounts. Based on data supplied by CDFIs
CDFI customers consist of the following:                            required to report to the Fund, it is estimated that CDFIs
                                                                    leverage their FA awards with other dollars by an
                                                                    average of 27:1.
    •     Small business owners who provide
          employment opportunities and needed services
                                                                    FY 2005 Changes to the Financial Assistance
          to disadvantaged communities:
                                                                    Component
    •     Affordable housing developers that construct
          and rehabilitate homes in low-income
                                                                    There were two changes to the FA component during
          communities;
                                                                    FY 2005:
    •     Community facilities that provide child care,
          health care, education and social services in             Revised Application Scoring for Hot Zones / Addition
          underserved communities;                                  of Severely Distressed Non-Metropolitan Areas: In the
    •     Commercial real estate developers that finance            FY 2002 through FY 2004 funding rounds, the Fund
          the acquisition, construction or rehabilitation           focused its funding on CDFIs projecting to serve
          of retail, office, industrial and community               Investment Areas that met higher levels of distress
          facility space in low-income communities; and             called “Hot Zones.” Applicants were ranked first by
                                                                    whether or not they projected to serve Hot Zones and
                                                                    then by their score. The Hot Zone criteria, however,
                                                                    excluded 53 percent of otherwise eligible rural
                                                                    counties. As a result, the Fund was limited in its




                                                                Treasury, CDFI Fund, FY 2005 Accountability Report   Page 13
ability to support CDFIs serving distressed markets                  received that year. Amounts not awarded during FY
falling outside of Hot Zones – especially rural areas.               2003 were carried over and awarded in FY 2004. The
To address this concern, the FY 2005 Notice of Funds                 reduction in FA awards from FY 2004 to FY 2005 is
Availability (NOFA) stated that applicants would                     attributable to these additional awards made in FY 2004
receive priority points (on a sliding scale) based on the            combined with a $5 million reduction in appropriated
projected level of financing activity in Hot Zones.                  dollars for FY 2005.
Applications that proposed investments in Severely
Distressed Non-Metropolitan Areas also received                                    Relationship Between Amounts
priority points. A Severely Distressed Non-                                           Requested and Awarded
Metropolitan Area is an area that meets the Fund’s                                     Core/FA Applications*
standard level of economic distress, but also exhibits                                  (amounts in millions)
characteristics of severe distress as identified by the
                                                                         $300
applicant. This provides for greater flexibility for the
                                                                                  $53
applicant to define the unique challenges facing rural                   $250
                                                                                          $42
areas.                                                                   $200
                                                                                                                         $33
                                                                         $150                                   $47
Soft Set Aside for SECA Category: In the FY 2005 round,                           $224
                                                                                          $198        $23
the Fund created a“soft set aside” of $2 million for Small               $100
                                                                                                     $107      $125
                                                                                                                      $160

and Emerging CDFI applicants (SECA).                                       $50

                                                                            $0
FY 2005 FA Awards                                                                2001    2002       2003       2004   2005
                                                                                                 Fiscal Year
During FY 2005, the Fund received 140 applications
requesting $134.3 million in financial assistance                                Dollars Requested     Dollars Awarded
including 46 SECA applicants requesting $13.3 million.
                                                                     * FY 2003 and FY 2004 amounts consist of FA applications
FA awards totaling $32.8 million were made to 48                     and awards; Core applications and awards are prior to FY
                                                                     2003.
organizations, compared to $46.7 million made to 68
organizations in the prior year. The FY 2005 awards
included 17 awards totaling $4.2 million to SECA                     Technical Assistance Component
applicants.
                                                                     The Technical Assistance (TA) component provides
                   Total Amount of Core/FA Awards
                                                                     grants to build the capacity of start-up and existing
                         (amounts in millions)                       CDFIs by acquiring prescribed types of products or
                                                                     services including technology (usually efficiency
           $60    $53.1
           $50            $41.6
                                          $46.7                      enhancing technology such as computers and loan
           $40                                     $32.8             management software), staff training, consulting
           $30                    $23.0                              services to acquire needed skills or services (such as a
           $20                                                       market analysis or lending policies and procedures), or
           $10
            $0
                                                                     staff time to conduct discrete, capacity-building
                 2001     2002    2003    2004    2005               activities (such as website development).
                             Fiscal Year
                                                                     More established CDFIs also use TA grants to build
The significant difference between the FY 2003 and FY                their capacity to provide new products, serve current
2004 amounts above was due to program changes made                   markets in new ways, or enhance the efficiency of their
in FY 2003, resulting in a smaller number of applications            operations—such as through upgraded computer




Treasury, CDFI Fund, FY 2005 Accountability Report         Page 14
hardware and software.                                           Of the 41 organizations receiving TA awards, 23 (56
                                                                 percent) were funded to increase the efficiency and
TA awards have a “soft cap,” generally limiting awards           capacity of their organizations through the addition or
to no more than $50,000. The average award for this              expansion of technology. Total award dollars to these
round was approximately $50,000 (several awards                  23 awardees was $1.1 million, which is 51 percent of
were higher than the soft cap).                                  the total TA awards.
                                                                                        Total Amount of TA Awards
FY 2005 Changes to the Technical Assistance                                                (amounts in millions)
Component                                                                   $6     $4.6                            $4.9
                                                                            $5
The Fund’s prior NOFA for the TA component                                  $4
covered two funding rounds on a rolling basis (FY                           $3
2003 and FY 2004). The FY 2005 NOFA covered a                               $2             $0.8    $0.8
single funding round. The reason for this change was                        $1                             $0.3
due to the fact that the substantial majority of                            $0
                                                                                 2000     2001    2002    2003    2004
applications in response to the prior “rolling” NOFA
                                                                                             Fiscal Year
were not submitted until the end of the funding round.
                                                                 CDFI Program Performance
The FY 2005 NOFA encouraged applicants to request
TA to improve their ability to collect performance data
                                                                 CDFI Program awardees report their annual performance
effectively and monitor the community impact of their
                                                                 to the Fund through the Fund’s web-based reporting
activities. The application included a new section
                                                                 system, the Community Investment Impact System
designed to assist applicants to assess their current data
                                                                 (CIIS). Each awardee has 180 days from its fiscal year
collection capabilities and identify which, if any,
                                                                 end to report through CIIS. This time allows the awardee
categories of TA are needed to support this capacity
                                                                 to complete its annual audit and enables the Fund to
development.
                                                                 verify reported information against the audit.
FY 2005 Awards                                                   The performance information provided herein pertains to
                                                                 each awardee’s 2004 fiscal year. It should also be noted
The Fund received 82 applications requesting $8.6                that, due to the length of time from notice of award
million in TA grants of which $2.1 was awarded to 41             through award disbursement, award deployment by an
organizations, compared to the $4.9 million awarded to           awardee, and receipt by the Fund of awardee impact
107 organizations during FY 2004. The large disparity            information , the effect of the Fund’s awards made
between these award amounts was due to the                       during any given year is not known until quite some time
combination of the FY 2003 and FY 2004 funding                   later.
rounds into a single NOFA with a rolling application
deadline. The majority of the FY 2003-2004                       Results based on information entered into CIIS by 136
applications were received on, or shortly before, the            CDFI Program awardees are shown in the table below:
application deadline.




                                                             Treasury, CDFI Fund, FY 2005 Accountability Report     Page 15
             Performance of 136 CDFI Program                        their staffs, the more they diversify and grow their
                 Awardees During FY 2004                            portfolios, and the more self-sufficient they are.

 1. # of full time jobs created or maintained (47)       12,335     A few examples illustrate these points. For this
 2, # of businesses financed (85)                         5,330     analysis, 223 CDFIs that provided performance
                                                                    information in FY 2003 were separated into four
 3. # of commercial real estate properties financed (21) 128        categories based on years of financing.
 4. # of affordable housing units financed (44)          21,511
 5. # of homebuyers who obtain financing (39)             2,066
                                                                    The table below summarizes these data by total assets
                                                                    and equity.
 6. # of accounts opened to the unbanked (8)             10,722
                                                                        FY 2003: Total Assets and Equity of CDFIs By Years of
 7. Dollars leveraged with private investments       $1.8 billion                   Financing (dollars in thousands)
 8. # of individuals provided with financial
      literacy and other training (114)                  76,864
                                                                                          4 Years    5-9      10 - 17   18 Years
 9. Individual Development Accounts (IDAs)
                                                                                          or Less    Years    Years     or More
      provided by CDFIs (26): Number                       1,018
                              Dollar amount          $1.1 million    Total Assets         $205.8    $534.7    $909.0    $3,507.5
                                                                     Equity                $59.8    $190.0    $366.2     $802.1
 Numbers in parentheses are the number of CDFI awardees
 reporting on this particular measure.
                                                                    The findings are consistent: CDFIs with fewer years of
                                                                    financing activity had smaller total assets and lower
Leveraging of CDFI Program Award Dollars                            levels of equity. Total assets is a good example: the
                                                                    youngest CDFIs together have just over $205 million
In FY 2004, CDFI Program awardees leveraged each                    in total assets while the next age group collectively has
dollar of the Fund’s FA awards: 27:1, consisting of                 over double that amount. The CDFIs with the longest
required matching funds, new debt they were able to                 history of financing have over $3.5 billion in total
secure because of Fund grant and equity awards, and                 assets.
additional financing from other sources for the projects
financed by CDFIs. This amount is significantly less                Likewise, CDFIs demonstrated more lending and
than the 53:1 leverage reported in FY 2003. The                     investing capital as years of financing increase. The
reason for this decrease is that the FY 2003 figure was             table below shows, for instance, that the least
based on preliminary analysis of the first year of CIIS             experienced CDFIs had on average just $2.5 million
data. Upon further analysis, the Fund determined that               available for lending and investing in FY 2003 while
53:1 was in fact too high and that the final figure for             the CDFIs with the longest financing histories on
FY 2003 was 21:1.                                                   average had about $51.2 million in capital. Lending
                                                                    and investing capital per FTE also rises dramatically,
CDFIs are Dynamic Institutions                                      from $540 thousand for the youngest CDFIs to $1.8
                                                                    million for the oldest, indicating higher levels of staff
Analysis of the information collected through CIIS                  productivity.
suggests that CDFIs are dynamic institutions, building
their assets and becoming financially stronger over
time. The data suggests that the more mature CDFIs
are, the more access they have to capital, the larger




Treasury, CDFI Fund, FY 2005 Accountability Report      Page 16
  FY 2003: Capital Available For Lending and Investing By
           Years of Financing( (dollars in thousands)                                         between 5 and 10 years had the highest loan loss rate
                                                                                              (4 percent), but this rate, as can be seen on the graph,
                                               4 Years    5-9      10 - 17 18 Years           then steadily declines. This pattern may be explained
                                               or Less    Years     Years or More             by the fact that less experienced institutions tend not to
Total                                          $145.3    $404.3    $619.6     $3.0            charge off loans early on, either because they are not
Average                                          $2.5     $8.1      $11.3    $51.2            making risky loans, loans with long maturity periods
                                                                                              have not had time to become delinquent, or they do not
Per FTE                                          $0.5     $1.0      $0.7      $1.8
                                                                                              have a charge off policy in place. As an institution
                                                                                              matures, it tends to make riskier loans, loans with
Measures of financial performance and portfolio                                               longer maturity dates may experience payment
quality also improve in relation to the length of                                             problems, and the institution develops clear policies
financing operations. As the following graph shows,                                           and procedures for charge-offs.
the self-sufficiency ratio increases with the CDFI’s
years of financing. Self-sufficiency is defined as the
percentage of operating expenses that are covered by                                                                         FY 2003: Loan Loss Rate
earned income. Higher self-sufficiency ratios mean an                                                                         By Years of Financing
institution relies less on contributions and donations to
cover its costs. Indeed, the self-sufficiency ratio is 40
percent for the least experienced CDFIs increasing to                                                               0.05




                                                                                                   Loan Loss Rate
79 percent for the CDFIs with the longest financing                                                                 0.04
histories.                                                                                                          0.03
                                                                                                                    0.02
                                                                                                                    0.01
                                       FY 2003: Self Sufficiency Ratio by Years of
                                                       Financing                                                      0
                                                                                                                           Youngest                     Oldest
                                                                                                                                       Age of CDFI
                                  1
        Self Sufficiency Ratio




                                 0.8

                                 0.6

                                 0.4

                                 0.2

                                  0
                                         Youngest         Age of CDFI            Oldest




In contrast, as shown in the following graph, loan
losses are lower for the most experienced CDFIs.
Loan loss rates are very low for both the least and most
experienced CDFIs (2 percent and 1 percent,
respectively). The CDFIs that have been financing




                                                                                          Treasury, CDFI Fund, FY 2005 Accountability Report           Page 17
                            NEW MARKETS TAX CREDIT PROGRAM
                                                                              Number of Certified Community Development
                                                                                         Entities At Year End
Overview
                                                                                                                      1,953
                                                                          2,000                              1,639
Created by the Community Renewal Tax Relief Act of
                                                                                                    1,194
2000, the New Markets Tax Credit (NMTC) Program is                        1,500
designed to spur the investment of $15 billion in new                     1,000         558
private capital into community development entities
                                                                           500
(CDEs). These investments will make it possible for
CDEs to make loans to and equity investments in                               -
                                                                                    2002          2003      2004     2005
businesses and real estate projects located in low-income
                                                                                                    Fiscal Year
communities.
                                                                Results of First Three NMTC Allocation Rounds
The NMTC Program permits taxpayers to receive a
credit against federal income taxes for making qualified        Throughout the life of the NMTC Program, the Fund is
equity investments (QEIs) in CDEs. Substantially all of         authorized to allocate to CDEs the authority to issue to
the QEIs must in turn be used by the CDEs to make               their investors up to $15 billion in equity against which
Qualified Low Income Community Investments                      NMTCs can be claimed. Allocations are awarded
(QLICIs).                                                       annually through a competitive process. To date, the
                                                                Fund has completed three allocation rounds and has
CDEs apply to the Fund for allocations of tax credits.          made 170 awards totaling $8 billion in allocation
Once an allocation is awarded, the CDE will provide the         authority. The remaining two allocation rounds to be
credits to investors in the CDE in exchange for stock or        held during FY 2006 and FY 2007 will each provide
capital ownership. The credit provided to the investor          $3.5 billion in allocation authority.
totals 39 percent of the cost of the investment and is
claimed over a seven-year credit allowance period. In           Demand for the tax credits has been high, as 824
each of the first three years, the investor receives a credit   applicants have requested credits supporting $79.1
equal to five percent of the total amount paid for the          billion in equity investments. The average tax credit
stock or capital interest at the time of purchase. For the      allocation through the first three rounds was $47 million.
final four years, the value of the credit is six percent
annually. Investors may not redeem their investments in                    Results of Completed Funding Rounds
                                                                                  (dollars in billions)
CDEs prior to the conclusion of the seven-year period.
                                                                              Applications                    Allocations
To qualify as a CDE, an entity must be a domestic                  Round     Number Amount                  Number     Amount
corporation or partnership that: 1) has a mission of                  1           345         $25.8           66            $2.5
serving, or providing investment capital for, low-income              2           271         $30.4           63            $3.5
communities or low-income persons; 2) maintains                       3           208         $22.9           41            $2.0
accountability to residents of low-income communities                             824         $79.1           170           $8.0
through their representation on a governing board of or
advisory board to the entity; and 3) has been certified as
a CDE by the CDFI Fund. As of September 30, 2005,
1,953 organizations have been certified as CDEs by the          Allocation agreements have been executed with each of
CDFI Fund, compared to 1,639 as of one year earlier.            the 129 first and second round allocatees. As of
                                                                September 30, 2005, ninety-five of these 129 allocatees
                                                                (74 percent) had reported raising QEIs totaling $2.7
                                                                billion.

                                                                Allocatees that have made QLICIs are required to submit
                                                                to the Fund annual transaction-level data reports along




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 18
with the allocatee’s audited financial statements within
six months after the end of the allocatee’s fiscal year.      Based upon data provided by the FY 2005 round
By the end of their respective FY 2004s, 61 allocatees        allocatees, the majority of investor proceeds from the
had reported making $1.3 billion in QLICIs with the           third round are likely to be invested in real estate,
results as shown below.                                       followed by non-real estate businesses, and to a much
                                                              smaller extent, loans and investments in other CDEs and
                                                              loan purchases.
       Performance of 61 NMTC Allocatees
                During FY 2004
                                                                              Finance Activity: Estimated Use of Third
Real Estate Development and Rehabilitation                                        Round NMTC Investor Proceeds


1. Number / dollar amount of loans                                                             Loan
                                                                       Loans/Invest
and investments supporting real estate                                 ments Other           Purchases
development and rehabilitation in                                       CDEs 8%                 7%
low-income communities              165 / $907 million
                                                                                                         Real Estate
2. Square footage of commercial real                                                                        61%
estate projected to be developed                                  Non-Real
and rehabilitated                          13 million              Estate
                                                                 Businesses
3. Number of full-time equivalent                                   24%
construction jobs projected to
be created                                   33,096
                                                              While all allocatees are required to invest substantially
Business Support                                              all (generally 85 percent) of the QEIs they receive in
                                                              low-income communities, most of the FY 2005
1. Number / dollar amount of loans and                        allocatees committed to invest NMTC proceeds in areas
investments supporting businesses                             characterized by severe economic distress (i.e., areas that
operating in low-income                                       have significantly higher poverty rates and lower median
communities                        126 / $353 million         family incomes than those minimally required under the
                                                              NMTC Program; areas that have unemployment rates at
2. Number of full-time                                        least 1.5 times the national average; and/or areas that
equivalent jobs created or maintained       11,321            have been designated for economic development through
                                                              other governmental programs such as Brownfields,
                                                              Empowerment Zones and Renewal Communities). Of
The 61 allocatees reported that 100 percent of the loans      the 41 allocatees, 37 indicated that at least 75 percent of
and investments were provided with better rates and           their activities will be provided in these areas of severe
terms than could be offered in the prevailing market.         economic distress, and 20 indicated that 100 percent of
Allocatees also reported making over $7 million of            their activities will be provided in such areas. The Fund
direct investments into other CDEs, purchasing $19            will require these allocatees, through their allocation
million of loans from other CDEs, and providing               agreements, to meet the benchmarks identified in their
financial counseling and other services to 207 businesses     applications.
in low-income communities.
                                                              All 41 of the allocatees indicated that they would invest
                                                              more than the minimally required 85 percent of QEI
Summary of the Third NMTC Allocation Round                    dollars into QLICIs, and 35 of the of the 41 allocatees
                                                              indicated that at least 95 percent of their QEI dollars
While there is not yet information pertaining to the          would be invested into qualified low-income community
deployment of investor capital with respect to the third      investments. In real dollars, this means at least $200
round allocatees, there is available information              million above and beyond what is minimally required
concerning the nature of the allocatees and their intended    under the NMTC program will be invested into low-
use of NMTC proceeds.



                                                             Treasury, CDFI Fund, FY 2005 Accountability Report    Page 19
income communities. The Fund will require these
allocatees, through their allocation agreements, to meet
the benchmarks identified in their applications.

Fourth Round

The Fund published a Notice of Allocation Availability
(NOAA) for the fourth round of allocations on July 15,
2005. This NOAA invited CDEs to compete for tax
credit allocations in support of an aggregate amount of
$3.5 billion in QEIs. The deadline for receipt of
applications under this NOAA was September 21, 2005.
As of the application deadline, the Fund received 241
applications requesting a total of $26 billion in allocation
authority1.




1
 Extensions were granted to 13 additional organizations that
were significantly affected by Hurricane Katrina or other
natural disasters that occurred during the open application
period.




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 20
                            BANK ENTERPRISE AWARD PROGRAM


Overview                                                          By statute, the Fund must award applicants in the
                                                                  CDFI Related priority before making awards to
The Bank Enterprise Award (BEA) Program recognizes
                                                                  applicants in the Financing Activities priority and
the key role played by traditional financial institutions in
                                                                  Service Activities priority.
community development lending and investing. It
provides incentives for regulated banks and thrifts to
                                                                  The prospect of a BEA Program award encourages
invest in CDFIs and to increase their lending and
                                                                  banks to achieve this first priority by providing low
financial services in economically distressed
                                                                  cost capital and operating support to CDFIs, which has
communities. Providing monetary awards for
                                                                  helped to create and sustain a network of CDFIs.
community reinvestment leverages the Fund’s dollars
                                                                  CDFIs serve as a delivery mechanism for banks to
and puts more capital to work in distressed communities
                                                                  partner with to better serve highly distressed
throughout the nation. By statute, the BEA Program is
                                                                  neighborhoods.
highly targeted to areas with larger populations. In
general, approximately 4000 Census Tracts qualify as
                                                                  Eligibility
“distressed communities” under the program.
                                                                  All depository institutions insured by the FDIC are
BEA Program awards are based on a percentage of the
                                                                  eligible to apply for a BEA Program award. The BEA
increase in the amount of Qualifying Activities from a
                                                                  Program rewards actual increases in the dollar volume
Baseline Period to a later Assessment Period (the
                                                                  of Qualified Activities from a Baseline Period to a
corresponding time the following year). Qualified
                                                                  later Assessment Period. Qualified Activities for the
Activities consist primarily of financial assistance
                                                                  BEA Program are divided into three priority areas:
provided to certified CDFIs as well as the various loans
made by financial institutions (for example, affordable
housing loans, small business loans, real estate                  1. CDFI-Related Activities: Equity investments
development loans), and services (such as access to                  (grants, stock purchases, purchases of partnership
automated teller machines and opening of savings                     interests or limited liability company membership
accounts).                                                           interests), equity-like loans, and CDFI support
                                                                     (loans, deposits or technical assistance) to certified
Promoting CDFI Investments Through the BEA                           CDFIs (referred to as CDFI Partners).
Program                                                           2. Distressed Community Financing Activities:
                                                                     Loans or investments for affordable home
The BEA Program has a dual purpose. The first                        *mortgages, affordable housing development,
priority is to increase banks' financial support of                  education, small businesses, and commercial real
CDFIs in order to build CDFI self-sufficiency and                    estate development in economically distressed
capacity (referred to as CDFI Related Activities). The               communities.
second priority is to build the capacity of Federal               3. Service Activities: Deposits, financial services
Deposit Insurance Corporation (FDIC) insured                         (such as check-cashing, money orders, or certified
depository institutions (banks) to expand their                      checks), electronic transfer accounts (ETAs),
community development lending and investments                        individual development accounts (IDAs), First
within severely underserved areas (referred to as the                Accounts, or community services provided to low-
Distressed Community Financing Activities and                        to moderate-income individuals or the institutions
Service Activities).                                                 serving them.




                                                               Treasury, CDFI Fund, FY 2005 Accountability Report   Page 21
Changes to the BEA Program During FY 2005                                      Amount Of Qualified Activities
                                                                                   by BEA Applicants
Changes to the BEA Program in FY 2005 consisted of                                      (amounts in millions)
the following:
                                                                     $1,200    $277

    •    Increased the maximum dollar limit for                      $1,000

         Qualified Commercial Real Estate Loans or any                $800                 $142             $38
         CDFI Related Activities, from the maximum                    $600                                          $73
                                                                              $915
         amount of $1 million under the previous NOFA,                $400
                                                                                                    $28    $598
         to $10 million. This change was made based on                                   $504
                                                                      $200                                         $327
         applicants noting that the $1 million cap was                                             $163

         unrealistically low and eliminated many                        $0
                                                                              2001      2002      2003    2004    2005
         worthwhile transactions from consideration;
                                                                                      CDFI Related Activities
                                                                                      Distressed Communities
    •    Reduced the maximum award amount from
         $1.5 million to $500,000 in order to maximize
         the number of awards; and                             The decrease in the dollar amount of awards for CDFI
                                                               Related Activities relative to awards for Distressed
    •    Adjusted the eligibility requirements to match        Community Financing Activities and Service
         those of the CDFI Program and the NMTC                Activities that has occurred subsequent to FY 2002 is
         Program. As a result, the Fund would only             due to the program changes adopted by the Fund in FY
         consider applications from organizations with         2003. Specifically, the Fund reduced the size and
         prior awards or allocations if such applicants        number of awards in the CDFI Related category and
         were in compliance with the terms of their            encouraged the provision of financial assistance to
         assistance / allocation agreements, had no            smaller CDFI Partners by (1) imposing asset limits on
         outstanding reports, and had no large                 CDFI Partners, (2) lowering the award percentage for
         undisbursed balances.                                 CDFI Support Activities, and (3) prohibiting an
                                                               applicant that is also a certified CDFI from receiving
                                                               credit for any financial assistance provided to a CDFI
FY 2005 BEA Program Awards                                     Partner that is also an FDIC-insured institution. This
                                                               trend, however, was reversed in FY 2005 with just
For FY 2005, the Fund received 84 applications                 under 60 percent of awards going to this category.
requesting almost $49 million, compared to 66                  This change is due to the increase in the maximum
applications requesting almost $25 million in the prior        allowable amount for qualifying activities under the
year. The Fund selected 53 FDIC-insured institutions           CDFI Related Support category from $1 million to $10
to receive just over $9.9 million in awards. The FY            million.
2005 applicants were a geographically diverse group
headquartered in 33 states, compared to the 20 states          FY 2005 Community Impact
serving as headquarters for the prior year.
                                                               The 84 FY 2005 applicants increased their qualified
FY 2005 awardees provided $462 million in loans to             community development activities by $103 million
or investments in CDFIs, $81 million in loans,                 over the prior year. These applicants were required to
deposits and technical assistance to CDFIs, and $14            report quantifiable impact data for Distressed
million in equity investments and grants to CDFIs.             Community Financing and Service Activities (the
                                                               second and third priority areas mentioned above) in
                                                               their award applications. Their reported results
                                                               include:




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 22
                                                                   Diversity of BEA Awardees
    •      348 new homebuyers;
    •      4,163 affordable housing units developed or             A variety of banks and financial institutions—in terms
           rehabilitated; and                                      of asset size and charter type—participate in the BEA
    •      2,143 jobs created/maintained or businesses             Program. Over the last several years, the number of
           created.                                                awards provided to the smallest banks and thrifts (i.e.,
                                                                   those with less than $500 million in assets) has increased
BEA Program Awardee Activities                                     from 27 percent of the FY 1998 awardees to 61 percent
                                                                   of the FY 2004 awardees. This percentage decreased to
The trend of investments in distressed communities and             50 percent in FY 2005, with a corresponding increase
investments in CDFIs by BEA awardees is shown                      (from 3 percent in FY 2004 to 13 percent) in the portion
below:                                                             of awards provided to the largest organizations (those
                                                                   with assets in excess of $10 billion). This is most likely
                                                                   attributable to the increase in the maximum allowable
                     Distribution of BEA Program
                         Awards By Category
                                                                   amount for qualifying activities under the CDFI Related
                         (amounts in millions)                     Support category from $1 million to $10 million. Larger
                                                                   banks have a greater capacity to make these relatively
   $50.0      $37.2
                                                                   larger loans. Because the BEA ranking process takes
   $40.0                                                           asset size relative to award amount into consideration,
                                                                   larger banks have a strong incentive to make larger loans
   $30.0                  $19.8                                    in order to increase their probability of receiving an
                                                 $3.3              award.
   $20.0                           $2.4
                                                         $5.9
   $10.0                                                                      Assets of FY 2005 BEA Awardees
              $8.9                $11.4     $13.7
                         $3.2                           $3.9
    $0.0                                                                                 More than
             2001       2002      2003      2004        2005                             $10 billion
                                                                                           11%
              CDFI Related Activities
              Distressed Community Financing and Services             $1 billion to                     $500 million
                                                                       $10 billion                        or Less
The total amount of awards made in FY 2005 ($9.9                         30%                               50%
million) decreased from the FY 2004 level ($17 million)
for two reasons: 1) a smaller amount was appropriated
                                                                                        $500 million
for the BEA Program in FY 2005; and 2) $3 million of
                                                                                        to $1 billion
FY 2003 funding was carried over and awarded in FY                                          9%
2004.




                                                                Treasury, CDFI Fund, FY 2005 Accountability Report     Page 23
        EXPANDING NATIVE OPPORTUNITY: NATIVE INITIATIVES

Overview                                                       Components of Native Initiatives
The Native Initiatives arise out of the findings of the        The Native Initiatives work to achieve the above six
CDFI Fund’s study of access to capital in Native               objectives through two principle strategies: a funding
American, Alaska Native and Native Hawaiian                    program – the Native American CDFI Assistance
communities (collectively referred to as Native                (NACA) Program – targeted to increasing the number
Communities). The Fund’s “Report on the Native                 and capacity of existing or new Native CDFIs, and a
American Lending Study” (the Lending Study), which             complementary training initiative that seeks to foster
was delivered to Congress in November 2001,                    the development of new Native CDFIs and to
identified barriers to private financing on such lands,        strengthen the operational capacity of existing Native
identified the impact of such barriers on access to            CDFIs.
capital and credit for Native Communities, and
suggested remedies to address them.                            NACA Program

The Fund’s Native Initiatives are about expanding              The NACA Program was introduced in FY 2004 and
native opportunity by overcoming barriers that prevent         provides Financial Assistance (FA) and Technical
access to credit, capital and financial services in            Assistance (TA) grants to Native CDFIs; and TA
Native Communities through the creation and                    grants to entities proposing to become or create Native
expansion of CDFIs primarily serving Native                    CDFIs. In FY 2005, the NACA Program replaced two
Communities (referred to as Native CDFIs). Thus, the           earlier funding programs in order to achieve greater
dual focus of the Native Initiatives is to assist Native       operational efficiencies:
Communities and Native organizations to create
Native CDFIs as well as to strengthen the operational              •   The Native American Community
capacity of existing Native CDFIs.                                     Development Financial Institution
                                                                       Development (NACD) Program provided TA
The Native Initiatives are based on six objectives:                    grants to organizations that planned to create
                                                                       Native CDFIs. This program applied to the
1. Expand training opportunities in community                          FY 2003 and FY2004 funding rounds; and
   development finance for Native Communities;
2. Offer technical assistance to overcome barriers to              •   The Native American Technical Assistance
   the creation or sustainability of Native CDFIs;                     (NATA) Program (a component of the TA
3. Offer technical and financial assistance awards                     Component of the CDFI Program) provided
   targeted to meet the needs of existing or proposed                  TA grants to Native CDFIs and entities
   Native CDFIs;                                                       proposing to become Native CDFIs, to help
4. Encourage traditional financial institutions to                     build their capacity to better address the
   increase their provision of financial products and                  community development and capital access
   services in Native Communities;                                     needs of Native communities.
5. Support the provision of financial education to
   Native Communities; and                                     In FY 2005, the Fund received 31 NACA applications
6. Facilitate networking and in-depth training forums          requesting just over $5 million including five requests
   in community development finance.                           for $1.8 million in FA. The Fund awarded a total of
                                                               $3.5 million to 22 organizations, compared to 32
                                                               awards totaling $8.5 million during the prior year.




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 24
Financial Assistance (FA) Grants
                                                              In November 2004, the CDFI Fund awarded the
Under the NACA Program, eligible Native CDFIs may             Native Individual Development Account (IDA)
receive FA awards (such as loans or grants depending          Initiative contract. The contractor provides training
on the source of matching funds) to support their             and TA to help Native CDFIs and other Native groups
financing activities. The Fund made four FA awards            establish, implement, and sustain IDAs as a strategy to
in the FY 2005 funding round totaling $1.3 million (all       increase demand for Native CDFI financial products
four also receive TA grants totaling $540,000),               and services. Through the Native IDA Initiative, the
compared to nine FA awards totaling $4.3 million              Fund will facilitate the offering of eight regional
made in FY 2004 (these same nine awardees also                training institutes over the next three years, including
received $856,000 in TA grants).                              institutes in Hawaii and Alaska. Each training is open
                                                              to ten participants (e.g., a Native CDFI, a tribe, or a
Technical Assistance (TA) Grants                              Native organization) and is paired with follow-on TA.
                                                              The first Native IDA Institute, launched in Seattle,
The NACA Program provides TA grants for capacity              Washington in September 2005, brought together nine
building uses – including operating grants for start-up       participants from the Northwest region of the country.
Native CDFIs and Native organizations seeking to              Trainings in the Southwest, Midwest, Alaska and the
create a Native CDFI. Awardees may use TA grants              South are being planned for 2006.
to acquire prescribed types of products or services
including technology (usually computer hardware and           FY 2005 Performance
software), staff and board training, consulting services
to acquire needed skills or services (such as a market        The performance goal for the Native Initiatives is to
analysis or lending policies and procedures), staff time      build the capacity and coverage of CDFIs and other
to conduct discrete, capacity-building activities (such       institutions to provide credit, capital, and related
as website development), and (for certain applicants)         services to Native communities. The CDFI Fund
general, ongoing, operational activities (such as             tracks two corresponding annual performance
general staff salary, rent and utilities, etc.).              measures: (1) the annual percentage increase in the
                                                              number of Native CDFIs; and (2) the annual
In FY 2005, the Fund awarded $2.1 million in TA               percentage increase in the total assets of Native
grants to 22 organizations, compared to $1.6 million          CDFIs.
provided to 15 organizations during the prior year.
                                                              In FY 2005, because the CDFI Fund was not accepting
Native Training Component                                     any new certification applications and because many
                                                              of the potential Native CDFIs were still one to three
The CDFI Fund contracts for the provision of training         years away from being able to meet all the certification
and technical assistance to Native lenders, financiers,       tests, there was only one new certified Native CDFI –
and community development practitioners interested in         increasing the number from 35 to 36.
developing Native CDFIs through the Native
Communities Financing Initiative (NCFI). The NCFI             Native CDFIs increased their total assets by 103
is an intensive series of workshops in conjunction with       percent between FY 2004 and FY 2005. The Fund has
on-going customized technical assistance conducted            a small number of Native CDFIs that report from year-
over 12 months to help Native communities develop             to-year (six in FY 2005); therefore, the performance of
and grow Native CDFIs. In 2005, over 100                      a single CDFI can have a great impact on the average
participants from 55 Native communities participated          change in assets. In FY 2005, a single CDFI increased
in an NCFI workshop. Since 2003, nearly 200 Native            its total assets by 350 percent, leading to the 103
communities and organizations have participated in an         percent increase of the entire group.
NCFI workshop.




                                                           Treasury, CDFI Fund, FY 2004 Accountability Report   Page 25
            FUND ACTIONS PERTAINING TO HURRICANE KATRINA


On August 25, 2005, Hurricane Katrina made landfall in         • Modified the NMTC Program allocation
the United States and left a path of devastation and             applications so that additional consideration will
destruction. It was the third most intense storm to hit the      be given to organizations that commit to target
United States in recorded history, the third deadliest storm     their investment activities to counties designated
since 1990, and the most expensive natural disaster in the       by FEMA as major disaster areas;
history of the United States. The hurricane left an
estimated 5 million people without power, displaced            • Provided extensions of time to file compliance
hundreds of thousands, and had a death toll exceeding            reports and financial statements required pursuant
1,200.                                                           to OMB Circular A-133 to Community
                                                                 Development Financial Institution (CDFI)
The Fund has been proactive in responding to Hurricane           Program awardees located within the FEMA
Katrina with the following actions:                              designated disaster areas;

    • Provided New Market Tax Credit (NMTC)                    • Provided grace periods of loan repayments for
      Program application deadline extensions, on a              CDFI Program awardees receiving loans from the
      case-by-case basis, to organizations whose                 Fund; and
      principal place of business is located in counties
      designated by the Federal Emergency                      • Added language to the FY 2006 Notice of Funds
      Management Agency (FEMA) as major disaster                 Availability for financial and technical assistance
      areas;                                                     applicants so that special consideration will be
                                                                 given to organizations that commit to target their
                                                                 activities and business plan to FEMA designated
                                                                 disaster areas.




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 26
                           STATUS OF FINANCIAL MANAGEMENT

This section includes the assurance statement required
under the Federal Managers’ Financial Integrity Act, a           Description of the CDFI Fund’s Financial
summary of the results of the FY 2005 financial                  Management System
statement audit, a summary of the financial
management initiatives of the Fund during FY 2005,               The Fund contracts for accounting services under a
and a discussion of the Fund’s financial position and            franchise agreement with the Bureau of the Public
results of operations as of and for the fiscal year ended        Debt’s Administrative Resource Center (ARC) in
September 30, 2005.                                              Parkersburg, West Virginia. While the ARC maintains
                                                                 the accounting system relating to the Fund’s
Federal Managers’ Financial Integrity                            transactions, the Fund is responsible for generation of
                                                                 all source documents and the accuracy of all
Act Annual Assurance Statement                                   accounting information.

            Department of the Treasury                           The Fund’s financial management system includes the
         Community Development Financial                         transactions maintained by ARC in the accounting
                  Institutions Fund                              system as well as records maintained and procedures
       Annual Assurance Statement for FY 2005                    performed by the Fund’s financial management staff in
                                                                 Washington, D.C. The Fund’s financial management
                                                                 staff is directly responsible for the administrative
As the Director of the Community Development
                                                                 control of its funds, financial planning, budget
Financial Institutions Fund, I have established internal
controls that enable me to provide reasonable
                                                                 formulation and execution, and review and analysis of
assurance that laws and regulations are followed;                financial information.
programs achieve their intended results free from waste
and mismanagement; resources are used consistently               Results of FY 2005 Financial Statement
with our overall mission; and controls are sufficient to
minimize any improper or erroneous payments.
                                                                 Audit
Furthermore, continuity of operations planning in
critical areas is sufficient to reduce risk to a reasonable      FY 2005 marks the eighth consecutive year in which
level. With the exception of certain performance                 the auditors rendered an unqualified opinion on the
information that is provided by program awardees,                Fund’s financial statements and in which no material
performance data is reliable. I base my assurance on             weaknesses, reportable conditions or areas of material
internal evaluations, management assessments and the             non-compliance with laws and regulations were
results of our prior and current year financial                  identified.
statement audits. Also, I can provide reasonable
assurance that the objectives of Sections 2 and 4 of the
Federal Managers’ Financial Integrity Act were                   FY 2005 Financial Management
achieved.
                                                                 Initiatives
In addition, the Fund substantially complies with the
requirements of the Federal Financial Management                 In FY 2005, the financial management focus was on
Improvement Act. The Fund’s financial management                 continuing to implement and enhance initiatives begun
systems substantially comply with the federal financial          in prior years. Implementation of the Community
management systems requirements, applicable                      Investment Impact System as discussed below was a
accounting standards, and use the United States                  priority of the Fund.
Standard General Ledger at the transaction level.

                                                                 Community Investment Impact System (CIIS)

                    Arthur A. Garcia
                        Director
                                                              Treasury, CDFI Fund, FY 2005 Accountability Report   Page 27
                                                               and viewing this information during the application
CIIS is a web-based system that allows for the                 review process, which can be a time saver during this
collection of institution level and transaction level data     process.
from CDFIs and CDEs
                                                               CDFI Information Mapping System (CIMS)
CDFI institution level data includes data points on the
organization’s profile, financial position, portfolio,         The Fund made two significant upgrades to its on-line
community impacts, development services, other                 mapping system during the past year. The first
products and services, as well as compliance                   upgrade allows our Certification Program customers to
questions. CDE institution level data includes data            electronically create and attach target market maps to
points on the organizations profile, QEI distribution,         their application. This capability has been
financial position, loan purchases, and financial              communicated to our customers as the “Maps to Apps”
counseling and other services                                  project. The second update allows our Certification
                                                               Program customers to electronically identify a
Transaction level data includes information on each            “National” or “Multi-State” target market and was
loan and investment a CDFI and CDE makes,                      introduced as a timesaver for our customers serving
including the purpose of the loan or investment,               large target market areas.
borrower and project location, borrower socio-
economic characteristics, loan and investment terms,           My CDFI Fund
repayment status, and community development
impacts.                                                       The Fund has continued to enhance the electronic web
                                                               based customer relationship tool called myCDFIFund.
CIIS was launched in June 2004 and was being used              In FY 2005, the Fund created an on-line awardee
by 300 CDFIs and 60 CDEs as of the end of FY 2005,             profile system that, when released to the public later in
compared to its use by 240 CDFIs and 16 CDEs at the            FY 2006, will provide users with the ability to search
end of the prior fiscal year. In FY 2005, CIIS was             through the profiles of Fund awardees when looking
upgraded to include additional compliance questions            for organizations that meet the specified criteria. The
for CDFIs and CDEs, and the Fund completed its                 purpose of this tool will be to assist in the matching of
second annual data collection using the system.                customer needs with CDFI service providers. Users
                                                               will be able to search on a number of criteria,
Much of the performance information in The                     including searching by region or location and product
Community Development Financial Institutions                   type. Thus, citizens and organizations, which are not
Program section of the Discussion and Analysis                 customers of the Fund, will be able to use our web site
section was provided by an analysis of CIIS data.              as a resource for the purpose of locating organizational
                                                               profiles and contact information for CDFIs that offer
Paperless Processing of Applications for the                   community development products and services.
Financial Assistance Component and the NMTC
Program                                                        Management Responsibilities
For the third year in a row, applicants for CDFI               Fund management is responsible for the fair
Program Financial Assistance and New Markets Tax               presentation of information contained in the principal
Credit (NMTC) awards were able to submit their                 financial statements in conformity with accounting
applications electronically. The entire process from           principles generally accepted in the United States of
application to award for the CDFI and NMTC                     America. Management is also responsible for the fair
Programs was completed in a paperless environment.             presentation of the Fund’s performance measures in
Significant improvements were made in the attachment           accordance with the Office of Management and
upload process that attaches documents to                      Budget requirements. The quality of the Fund’s
applications. These improvements provide our                   internal control structure rests with management, as
customers with a more intuitive file upload process            does the responsibility for identification of and
and allow more flexibility in the types of documents           compliance with applicable laws and regulations.
they can attach to their electronic applications. They
also provide Fund staff greater flexibility in retrieving




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 28
Limitations of the Financial Statements                                amounts borrowed) and the amount expended. The
                                                                       Fund Balance with Treasury increased gradually
The financial statements report the financial position                 through FY 2001, and then (with the exception of FY
and results of operations of the Community                             2004) decreased each year thereafter.
Development Financial Institutions Fund as of and for                  This annual decrease is the result of efforts undertaken
the years ended September 30, 2005 and 2004,                           starting in FY 2002 to reduce the amount of
pursuant to the requirements of 31 U.S.C. 3515(b).                     undisbursed awards. This decrease is largely the result
While the financial statements have been prepared                      of requiring a certain percentage of matching funds to
from the books and records of the Fund in conformity                   be either in-hand or committed at the time of
with accounting principles generally accepted in the                   application submission. Once the related assistance
United States of America, the statements are in                        agreements are signed by the Fund and the awardee, a
addition to the financial reports used to monitor and                  disbursement can be made immediately rather than
control budgetary resources which are prepared from                    waiting for the matching funds to be obtained.
the same books and records. The statements should be
read with the realization that they are for a component                The decrease in the fund balance with Treasury is also
of the U.S. Government, a sovereign entity.                            a function of the amount of the annual appropriation
                                                                       received from Congress. Since the annual
                                                                       appropriation received has decreased each year since
Analysis of Financial Position and                                     FY 2001 (this annual amount increases the fund
Results of Operations                                                  balance with Treasury) it takes a smaller amount of
                                                                       annual award disbursements to have a greater
The following table presents selected highlights from                  percentage reduction in the fund balance.
the Fund’s financial statements as of and for the fiscal
years ended September 30, 2005 and 2004:                               Loans Receivable
                                                                       Loans receivable are increased when CDFI Program
                           Summarized Financial Data                   loan awards are disbursed by the Fund. The $4.1
                              (amounts in millions)                    million increase in loans represents the amount of loan
                                                       Increase/       awards disbursed during the year of $5.4 million, less
                                      FY 2005 FY 2004 (Decrease)       the related increase in the allowance for bad debts of
Assets                                 $159.9 $182.3      ($22.4)      $1.4 million (the allowance is equal to 25 percent of
Liabilities                             $52.4  $57.1       ($4.7)      the amount of loans).
Net Position                           $107.5 $125.2      ($17.7)
Revenue and Financing Sources           $71.9  $51.3       $20.6                        Allocation of Fund Assets
Expenses                                $72.8  $51.9       $20.9                           September 30, 2005
(Shortage) of Revenue and Financing                                                        (amounts in millions)
  Financing Sources Over Expenses       ($0.9)   ($0.6)    ($0.3)                                        $6.6
                                                                                             $34.6                $72.1
Assets                                                                                            $46.6


Assets decreased by $22.4 million during the year,
consisting primarily of a $26.8 million decrease in                        Fund Balance With Treasury     Loans Receivable, Net
Fund Balance with Treasury offset by a $4.1 million                        Investment in Awardees, Net    Other
increase in net loans receivable. Other assets increased
by $.3 million.

                                                                       Liabilities
Fund Balance with Treasury
Any change in Fund Balance with Treasury during the                    The decrease in liabilities during the year of $4.7
year results from the difference between the amount of                 million consisted of a decrease in awards payable of
appropriated funds received during the year (including                 $8.2 million offset by an increase in long-term debt of




                                                                    Treasury, CDFI Fund, FY 2005 Accountability Report    Page 29
$3.4 million. Awards payable consists of undisbursed           payment information not available at the time of
BEA awards (recorded as a liability at the time of             award, and on current interest rates. Accordingly, an
award) and CDFI Program award disbursements                    upward or downward reestimate adjustment will be
approved at year-end but not processed.                        required every year. A downward adjustment means
                                                               that prior subsidy estimates were overstated – amounts
Awards Payable                                                 appropriated in prior years for loan subsidies were in
Awards payable have decreased every year since 2001            excess of what was needed – and so the Fund borrows
for two reasons: 1) the Fund’s annual budget                   this amount to repay to the Treasury Department.
appropriations peaked in FY 2001 and have decreased
each subsequent year; so there is a smaller amount of          Net Position
BEA Program awards to make each year, and 2)
starting in FY 2002, the Fund required all CDFI                Net position decreased during the year by $17.6
Program grantees to have a certain portion of their            million. Net position will change during the year as a
matching funds either in-hand or committed at the time         result of the following: 1) the difference between
of application. This combination of a decrease in the          appropriations received (net of appropriations
amount of annual BEA Program awards and a                      cancelled, rescinded and adjusted for credit subsidy re-
significant amount of annual CDFI Program award                estimates) and appropriations used; 2) any adjustment
disbursements is causing the decrease in awards                of the Fund’s subsidy reestimate, and 3) the excess (or
payable.                                                       shortage) of revenue and financing sources over
                                                               (under) expenses. During FY 2005, appropriations
The $8.2 million reduction in awards payable consists          received (net of amounts cancelled, rescinded and
of a decrease of $5.9 million in the amount of BEA             credit subsidy adjustments) were $53.7 million, and
awards payable and a decrease of $2.3 million in the           appropriated capital used was $69.9 million. This
amount of CDFI Program awards payable. The                     difference of $16.2 million decreases net position.
reduction in BEA awards payable resulted from
disbursing $8.2 million of the beginning balance of            During the year, the Fund adjusted its subsidy
BEA Program awards payable, offset by the net $2.3             reestimate downward by $.5 million, which required
million increase (new awards less amounts disbursed)           an additional borrowing from Treasury. As stated
in new FY 2005 BEA awards.                                     above, the amount borrowed is used to pay back to the
                                                               Treasury Department the excess subsidy amounts
CDFI Program awards are accrued as liabilities to the          appropriated in prior years. This $.5 million
extent that award disbursements have been approved at          repayment reduces net position.
year-end but not disbursed. The amount of such
approved disbursements at the end of FY 2005 was               The shortage of net revenue and financial sources
$2.3 million less than the amount as of the end of FY          under expenses contributed an additional $.9 million
2004.                                                          of the decrease in net position.

Debt
The increase in debt of $3.4 million relates to
additional borrowings (net of repayments) necessary to
fund loans made during the year to awardees, and to
fund the downward subsidy reestimate. Awards made
in the form of loans are funded in part by borrowings
from Treasury.


For Federal budget purposes the Fund is required to
annually recompute the estimated amount of subsidy
on prior loans made to awardees. This subsidy
represents the difference between the present value of
the projected future cash flows on loan awards and the
face amount of the loans. It is based on historical




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 30
Revenue and Financing Sources, Expenses, and                                                     Award Expenses
Shortage of Revenue and Financing Sources                                                   (amounts in millions)
Under Expenses
                                                                                $100.0
Revenue and Financing Sources                                                    $80.0   $46.5     $22.1
               Revenue and Financing Sources                                     $60.0                     $13.5
                                                                                                                           $8.4
                    (amounts in millions)
                                                                                 $40.0
                                                                                                   $62.5           $16.7
               $111.2                                                                    $52.8             $53.9           $47.7
       $120              $101.1                                                  $20.0
                                   $83.0                                                                           $20.3
       $100
                                                     $71.9                        $0.0
        $80                                 $51.3                                        2001 2002 2003 2004 2005
        $60                                                                                         Fiscal BEA
                                                                                                           YearProgram
                                                                                          CDFI Program
        $40
        $20
         $0
               2001     2002      2003     2004     2005                Under the BEA Program, awards are recognized as
                            Fiscal Year                                 expenses at the time a notice of award is signed by the
                                                                        Fund. Under the CDFI Program, awards pertaining to
                                                                        grants are recognized as an expense at the time award
Revenue and financing sources for FY 2005 totaled                       disbursements are made, while awards pertaining to
$71.9 million, a $20.6 million increase over the prior                  loans and equity are treated as increases to loans
year. The largest component of revenue and financing                    receivable and investments, respectively, at the time of
sources is appropriated capital used. Pursuant to                       disbursement.
accounting principles generally accepted in the United
States of America, appropriated capital used is                         Accordingly, the FY 2005 BEA Program expense was
recognized at the time an expense is incurred.                          smaller than the prior year amount due to a smaller
                                                                        amount of awards being made during the year. This is
Expenses                                                                due to a decrease in the amount of funds appropriated
                                                                        for the year by Congress for the BEA Program.
The change in the Fund’s operating expenses during
FY 2005 consisted of the following:                                     CDFI Program expenses increased during the year due
                                                                        to an increase in the amount of CDFI Program grant
            Comparison of Operating Expenses                            disbursements being made compared to the prior year.
            Fiscal Years 2005 and 2004                                  This increase is due more to the fact that the dollar
                  (amounts in millions)                Increase
                                                                        amount of CDFI Program grants disbursed in FY 2004
                               FY 2005        FY 2004 (decrease)
                                                                        was unusually low. The reason for this is because a
 Award Expenses                   $56.1           $37.0      $19.1      significant amount of CDFI Program disbursements
 Administrative Expenses          $12.6           $10.6      $2.0       were made during FY 2002 and FY 2003, significantly
                                                                        decreasing the amount of undisbursed awards at the
 Bad Debt Expense                 $1.3            $0.6       $0.7
                                                                        beginning of FY 2004. A smaller amount of
                                  $70.0           $48.2      $21.8      undisbursed awards at the beginning of the year means
                                                                        that there is a smaller amount of awards to disburse
                                                                        during the year.
Award Expenses
The increase in award expenses of $19.1 million                         As can be seen in the accompanying chart, while there
during the year consisted of an increase in CDFI                        was a significant reduction in the amount of CDFI
Program grant expense of $27.4 million offset by a                      grants disbursed (and therefore expensed) during FY
decrease in BEA Program expense of $8.3 million.                        2005, the amount disbursed during that year as a
                                                                        percentage of the beginning undisbursed balance was
                                                                        actually higher than prior years.




                                                                     Treasury, CDFI Fund, FY 2005 Accountability Report      Page 31
             Relationship Between CDFI Program                 Shortage of Revenue and Financing Sources Under
             Grant Expense and Undisbursed Awards              Expenses
                    (amounts in millions)
                             FY 2005     FY 2004     FY 2003   As stated above, the amount of appropriated capital
                                                               used (the largest component of the Fund’s revenue) is,
CDFI Program Grant
  Expense                     $47.7       $20.2      $53.9     with certain adjustments, equal to the amount of
                                                               operating expenses for the year. Accordingly, the
Beginning Balance of
                                                               shortage of revenue and other financing sources over
  Undisbursed Awards          $60.7       $34.8      $87.8
                                                               expenses (the Fund’s “net loss”) will consist of the
Percentage of Beginning                                        amount by which expenses not covered by budgetary
   Balance Disbursed          78.6%       58.0%      61.4%
                                                               resources exceeds revenue and financial sources other
                                                               than appropriated capital used.

Administrative Expenses                                        For FY 2005, expenses not covered by budgetary
The increase in administrative expenses is due to an           resources totaled $2.8 million, consisting of interest
increase in the amount of personnel costs and in               expense on Treasury borrowings of $2.3 million and
certain contractual costs. The Fund is in the process of       $.5 million of loan subsidy disbursed from the Fund’s
procuring a contract for an evaluation of the NMTC             no-year account (this account consists of interest
Program. With the exception of any future costs                income, dividend income and proceeds from the
pertaining to this contract and assuming continuing            redemption of equity investments, accumulated since
funding, we expect administrative costs for the next           Fund inception). Revenue and financial sources other
several years will remain fairly constant.                     than appropriated capital used totaled $1.9 million
                                                               consisting of interest and dividends of $1.7 million
Bad Debt Expense                                               and a $.2 million realized gain on the disposition of
Bad debt expense is a function of the amount of loans          investments. The excess of the $2.8 million of
receivable at year-end. The Fund’s allowance for bad           expenses not covered by appropriations exceeds the
debts is equal to 25 percent of loans receivable. The          $1.9 million of revenue and financing sources other
net increase in loans receivable during FY 2005 (the           than appropriated capital by $.9 million, representing
amount of CDFI Program loan awards disbursed in                the shortage of revenue and financing sources under
excess of loan repayments) was $5.4 million, resulting         expenses.
in an increase to the allowance for bad debts of $1.3
million.




Treasury, CDFI Fund, FY 2005 Accountability Report   Page 32
                                  Independent Auditors’ Report




Treasury, CDFI Fund, FY 2005 Accountability Report Page 33
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036



                    Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and
Director, Community Development Financial Institutions Fund:

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (the Fund) as of September 30,
2005 and 2004, and the related statements of operations and changes in net position, and cash
flows, for the years then ended. These financial statements are the responsibility of the Fund’s
management. Our responsibility is to express an opinion on these financial statements based on
our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable provisions of
the Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements. Those standards and OMB Bulletin No. 01-02 require that we plan
and perform the audits to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the U.S. Department of Treasury’s Community Development Financial
Institutions Fund, as of September 30, 2005 and 2004, and the results of operations and changes in
net position, and cash flows for the years then ended, in conformity with accounting principles
generally accepted in the United States of America.
The information in the Management’s Discussion and Analysis section and the appendices, as
reflected on the accompanying table of contents, is not a required part of the financial statements,
but is supplementary information required by accounting principles generally accepted in the
United States of America or OMB Circular A-136, Financial Reporting Requirements, Part A,
Form and Content of the Performance and Accountability Report. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods
of measurement and presentation of this information. However, we did not audit this information
and, accordingly, we express no opinion on it.




34
                              KPMG LLP, a U.S. limited liability partnership, is the U.S.
                              member firm of KPMG International, a Swiss cooperative.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken
as a whole.
In accordance with Government Auditing Standards, we have also issued reports dated October
31, 2005, on our consideration of the Fund’s internal control over financial reporting and our tests
of its compliance with certain provisions of laws, regulations, contracts and grant agreements, and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and should
be read in conjunction with this report in assessing the results of our 2005 audit.




October 31, 2005




35
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036



        Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury, and
Director, Community Development Financial Institutions Fund:

We have audited the statement of financial position of the U.S. Department of the Treasury’s
Community Development Financial Institutions Fund (the Fund) as of September 30, 2005 and
2004, and the related statements of operations and changes in net position and cash flows for the
years then ended, and have issued our report thereon dated October 31, 2005. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable sections of the Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.
In planning and performing our fiscal year 2005 audit, we considered the Fund’s internal control
over financial reporting by obtaining an understanding of the Fund’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards and OMB
Bulletin No. 01-02. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our
audit was not to provide assurance on the Fund’s internal control over financial reporting.
Consequently, we do not provide an opinion thereon.
Our consideration of internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions
are matters coming to our attention relating to significant deficiencies in the design or operation of
the internal control over financial reporting that, in our judgment, could adversely affect the
Fund’s ability to record, process, summarize, and report financial data consistent with the
assertions made by management in the financial statements. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements, in amounts that would be
material in relation to the financial statements being audited, may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected. However, we noted no matters involving internal control and its
operations that we considered to be material weaknesses as defined above.




36
                              KPMG LLP, a U.S. limited liability partnership, is the U.S.
                              member firm of KPMG International, a Swiss cooperative.
As required by OMB Bulletin No. 01-02, in our fiscal year 2005 audit, with respect to internal
control related to performance measures determined by management to be key and reported in the
Management’s Discussion and Analysis, we obtained an understanding of the design of significant
internal controls relating to the existence and completeness assertions. Our procedures were not
designed to provide assurance on internal control over reported performance measures and,
accordingly, we do not provide an opinion thereon.
This report is intended solely for the information and use of the Fund’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.




October 31, 2005




37
                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036



                 Independent Auditors’ Report on Compliance and Other Matters



Inspector General, U.S. Department of the Treasury, and
Director, Community Development Financial Institutions Fund:


We have audited the statement of financial position of the U.S. Department of the Treasury’s
Community Development Financial Institutions Fund (the Fund) as of September 30, 2005 and
2004, and the related statements of operations and changes in net position and cash flows for the
years then ended, and have issued our report thereon dated October 31, 2005. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable sections of the Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.
The management of the Fund is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the Fund. As part of obtaining reasonable assurance about whether
the Fund’s fiscal year 2005 financial statements are free of material misstatement, we performed
tests of the Fund’s compliance with certain provisions of laws, regulations, contracts, and grant
agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 01-02, including certain provisions referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with all laws,
regulations, contracts, and grant agreements applicable to the Fund. However, providing an
opinion on compliance with laws, regulations, contracts, and grant agreements was not an
objective of our audit and, accordingly, we do not express such an opinion.
The results of our tests of compliance with certain provisions of laws, regulations, contracts, and
grant agreements described in the preceding paragraph, exclusive of those referred to in FFMIA,
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 01-02.
Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the Fund’s
financial management systems substantially comply with (1) Federal financial management
systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level. To meet this requirement, we
performed tests of compliance with FFMIA Section 803(a) requirements.
The results of our tests of FFMIA disclosed no instances in which the Fund’s financial
management systems did not substantially comply with the three requirements discussed in the
preceding paragraph.



38
                              KPMG LLP, a U.S. limited liability partnership, is the U.S.
                              member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of the Fund’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.




October 31, 2005




39
                                      Community Development Financial Institutions Fund
                                              Statements of Financial Position
                                            As of September 30, 2005 and 2004


                                                                                 2005          2004
                                         Assets

 Current assets:
  Fund Balance with Treasury (Note 2)                                        $    72,077,789    98,869,244
  Advances and prepayments                                                           731,327     1,361,767
  Loans receivable, net of allowance for bad
     debts of $552,729 in 2005 and $910,338 in 2004                                1,658,188     2,731,015
  Investments (Note 3)                                                                     -       490,000
  Interest receivable                                                                283,472       168,243
  Other receivables                                                                        -           239
                  Total current assets                                            74,750,776   103,620,508

 Long-term assets:
   Loans receivable, net of allowance for bad
     debts of $14,974,652 in 2005 and $13,256,469 in 2004                         44,923,956    39,769,408
   Investments, net of fair value adjustments of
     $3,397,220 in 2005 and $2,750,000 in 2004 (Note 3)                           34,604,302    33,913,083
   Internal-use software, net of accumulated amortization of
   $924,262 in 2005 and $468,693 in 2004                                           2,264,721     2,720,290
   Internal-use software in development                                            3,354,181     2,284,375
                  Total long-term assets                                          85,147,160    78,687,156

                  Total assets                                               $   159,897,936   182,307,664

                              Liabilities and Net Position

     Current liabilities:
      Accounts payable                                                       $       648,886       496,741
      Awards payable                                                               5,268,786     9,664,009
      Accrued payroll                                                                188,902       176,700
      Accrued annual leave                                                           245,608       270,346
                  Total current liabilities                                        6,352,182    10,607,796

     Long-term liabilities:
       Debt (Note 4)                                                              40,561,891    37,222,530
       Awards Payable                                                              5,451,128     9,320,313
                  Total long-term liabilities                                     46,013,019    46,542,843

                  Total liabilities                                               52,365,201    57,150,639

 Commitments (Note 5)

 Net position (Note 6)                                                           107,532,735   125,157,025

                  Total liabilities and net position                         $   159,897,936   182,307,664



The accompanying notes are an integral part of these financial statements.




40
                         Community Development Financial Institutions Fund
                        Statements of Operations and Changes in Net Position
                              Years Ended September 30, 2005 and 2004



                                                                             2005           2004

Revenue and financing sources:
 Appropriated capital used                                          $         69,868,092     49,293,451
 Imputed financing sources - expenses paid by others (Note 7)                    345,759        361,317
 Interest, non-federal                                                         1,160,331      1,022,746
 Interest, federal                                                               293,930        352,812
 Dividends                                                                       253,410        239,279
   Total revenue and financing sources                                        71,921,522     51,269,605

Expenses:
 CDFI grants                                                                  47,719,812     20,293,708
 BEA grants                                                                    8,374,171     16,681,027
 Administrative                                                               12,223,891     10,311,653
 Bad debt expense                                                              1,360,574        567,419
 Administrative expenses paid by others (Note 7)                                 345,759        361,317

     Total operating expenses                                                 70,024,207     48,215,124

 Treasury borrowing interest                                                   2,362,511      2,237,342
 Unrealized loss on investments                                                  647,220      1,250,000
 Net realized losses (gains) on disposition of investments                      (187,994)       205,728

     Total expenses                                                           72,845,944     51,908,194

Shortage of revenue and financing sources
 under expenses                                                     $           (924,422)      (638,589)

Changes in Net Position:
 Net position, beginning of year                                    $        125,157,025    117,237,042
 Shortage of revenue and financing sources
 under expenses                                                                 (924,422)      (638,589)
 Other changes (Note 8)                                                      (16,699,868)     8,558,572

     Net position, end of year                                      $        107,532,735    125,157,025



The accompanying notes are an integral part of these financial statements.




41
                           Community Development Financial Institutions Fund
                                      Statements of Cash Flows
                              Years Ended September 30, 2005 and 2004


                                                                             2005           2004
Cash flows from operating activities:
  Shortage of revenue and financing sources
    under expenses                                                    $        (924,422)      (638,589)
  Adjustments affecting cash flow:
    Appropriated capital used                                                (69,868,092)   (49,293,451)
    Interest on upward adjustment of prior year subsidy                          (56,309)      (122,505)
    Amortization expense                                                         455,569        270,299
   Unrealized loss on investments                                                647,220      1,250,000
   Decrease in advances and prepayments                                          630,439        706,152
   Increase in interest receivable                                              (115,229)       (17,815)
   Decrease in other receivables                                                     239         39,117
   Increase in allowance for bad debts                                         1,360,574        567,419
   Increase (decrease) in accounts payable and accrued payroll                   164,347       (110,983)
   Decrease in awards payable                                                 (8,264,408)    (7,159,491)
   Increase (decrease) in accrued annual leave                                   (24,738)        20,234

                 Net cash used by operating activities                       (75,994,810)   (54,489,613)

Cash flows from investing activities:
  Investments in awardees                                                       (848,439)       851,278
  Acquisition of internal-use software                                        (1,069,806)    (2,012,551)
  Loans disbursed                                                             (7,808,648)    (2,779,883)
  Collection of loan principal                                                 2,366,354        510,208

                 Net cash used by investing activities                        (7,360,539)    (3,430,948)

Cash flows from financing activities:
  Appropriations received                                                    56,058,105     62,526,803
  Appropriations cancelled                                                   (1,891,505)    (1,438,999)
  Appropriations rescinded                                                     (444,176)      (359,900)
  Borrowings from Treasury                                                    6,347,451      5,276,187
  Subsidy repayments to Treasury                                               (497,891)    (2,753,376)
  Loan payments to Treasury                                                  (3,008,090)    (1,854,608)

                 Net cash provided by financing activities                   56,563,894     61,396,107

                 Net change in Fund balance with Treasury                    (26,791,455)    3,475,546

Fund balance with Treasury, beginning of year                                98,869,244     95,393,698

Fund balance with Treasury, end of year                               $      72,077,789     98,869,244



The accompanying notes are an integral part of these financial statements.




42
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                            Financial Statements

                                       September 30, 2005 and 2004


(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Community Development Financial Institutions Fund (the Fund) was created as a
            bipartisan initiative in the Riegle Community Development and Regulatory Improvement Act
            of 1994 (Public Law No. 103-325). The Fund was placed in the Department of the Treasury
            and began operations in July 1995.

            The Fund operates various programs aimed at expanding the availability of credit, investment
            capital, and financial and other services in distressed urban, rural, and Native American
            communities. The Fund is intended to help create a national network of financial institutions
            dedicated to community development that leverages private resources (financial and human) to
            address community development needs.

            The major programs operated by the Fund are the Community Development Financial
            Institutions Program (consisting of a Financial Assistance and Technical Assistance
            Component), the New Markets Tax Credit Program, the Bank Enterprise Awards Program, and
            Native American Initiatives.

            The Community Development Financial Institutions (CDFI) Program provides financial and
            technical assistance awards to certified community development financial institutions (CDFIs)
            which in turn provide services to create community development impact in underserved
            markets. Financial assistance awards take the form of grants, direct loans, and equity
            investments. Technical Assistance grants provide assistance to start-up and early-stage CDFIs
            and entities planning to become CDFIs.

            The Fund implemented the New Markets Tax Credit (NMTC) Program during FY 2002.
            Under this program, the Fund provides an allocation of tax credits to Community Development
            Entities (CDEs), which use these credits to attract private sector investment. Proceeds from
            these investments are used for community development purposes. Unlike the Fund’s grant
            programs, the allocation of tax credits to CDEs has no effect on the financial statements of the
            Fund.

            The Bank Enterprise Awards (BEA) Program provides incentives to insured depository
            institutions (banks and thrifts) to invest in CDFIs and to increase their lending and financial
            services in distressed communities. Program participants are selected based on projected
            achievements. The awards are disbursed only after the activities have been implemented
            successfully, to ensure that only completed activities are recognized and that the Fund’s
            limited dollars are effectively leveraged with private capital.

            Through Native American Initiatives, the CDFI Fund provides grants to help create CDFI’s
            and to build the capacity of existing Native CDFIs that serve primarily Native American,
            Alaska Native, and Native Hawaiian communities.




43
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                          Financial Statements

                                      September 30, 2005 and 2004

     (b)   Basis of Presentation
           The American Institute of Certified Public Accountants (AICPA) has designated the Federal
           Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial
           statements of federal governmental entities, with respect to the establishment of accounting
           principles generally accepted in the United States of America. FASAB has indicated that
           financial statements prepared based upon accounting standards published by the FASB may
           also be regarded as in accordance with generally accepted accounting principles for those
           federal entities, such as the Fund, that have issued financial statements based upon FASB
           accounting standards in the past. Accordingly, consistent with historical reporting, the Fund
           financial statements are presented in accordance with accounting standards published by the
           FASB.

     (c)   Fund Balance with Treasury
           The Fund does not maintain cash in commercial bank accounts. The U.S. Department of the
           Treasury (Treasury Department) processes cash receipts and disbursements. Fund Balance
           with Treasury is composed primarily of appropriated and borrowed funds (financing and
           program accounts) that are available to pay liabilities and finance authorized award and
           purchase commitments.

     (d)   Fair Value of Financial Instruments
           The fair value of the Fund’s financial instruments was determined as discussed below:

           1) Fund Balance with Treasury

             The carrying amount approximates fair value for Fund balance with Treasury because of the
             liquid nature of the funds with Treasury.

           2) Loans Receivable and Debt

             The carrying amount of loans receivable and debt approximates fair value because the
             related interest rates approximate current rates for similar loans and debt.

           3) Investments

             None of Fund’s investments are in publicly traded entities for which a share price can be
             readily obtained, accordingly, the Fund estimated the fair value of investments as follows:

                  Non-voting equity securities and limited partnership interest – Several factors were
                   considered in estimating fair value for these investments, including, the cost of the
                   investment, developments since the acquisition of the investment, the financial
                   condition and operating results of the investee per their financial statements, the long-
                   term potential of the business, recent share or unit prices paid, and other factors
                   generally pertinent to the valuation of investments.




44
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                          Financial Statements

                                      September 30, 2005 and 2004

                   The Fund, in making its evaluation, has relied on financial data of awardees and, in
                   many instances, on estimates by the management of the awardees as to the potential
                   effect of future developments.

                  Convertible debt securities – Fair values were estimated using the same methodology
                   as used for non-voting equity securities described above, based on the assumption that
                   the securities were converted into stock.

                  Secondary capital securities – These investments have terms similar to loans, and
                   accordingly fair values were estimated by discounting future projected cash flows at
                   the Treasury rate of securities with similar maturities.

                  Certificates of deposit – The carrying amount approximates fair value because of the
                   liquid nature of the investments.

           4) Advances and Prepayments, Interest Receivable, Other Receivables, and Other Liabilities

             The carrying amount of advances and prepayments, interest receivable, other receivables,
             and other liabilities approximate fair value as they represent the amounts expected to be
             realized or paid.

     (e)   Loans Receivable
           The Fund provides assistance by making direct loans to certain CDFI Program awardees. Loans
           are reported as receivables when disbursed, reduced by a 25% default allowance. The Office
           of Management and Budget negotiated a 25% default allowance with the Fund to estimate
           future losses if adequate historical information is not available. Historical information is not
           available, and will not be available for some time due to the following: 1) the short length of
           time the loans have been outstanding; and 2) the majority of loans made by the Fund require
           either balloon payments at maturity, or principal payments commencing shortly before the
           maturity date. The borrowers, in accordance with the repayment schedules, have made timely
           interest and principal payments and there have not been any write-offs to date.

     (f)   Interest Receivable
           Interest is accrued on the outstanding loans receivable principal balances and investments
           based on stated rates of interest.

     (g)   Investments
           The Fund provides assistance to certain for-profit CDFI program awardees by purchasing non-
           voting equity and convertible debt securities and to Federal credit union awardees by
           purchasing certificates of deposit and by providing secondary deposits. Investments in CDFI
           program and Federal credit union awardees are stated at fair value.

           In the event the Fund’s evaluation results in an adjustment to fair value, an unrealized gain or
           loss is recorded and the investment balance is adjusted accordingly.

           The Fund is restricted from owning more than 50% of the equity of awardees and from
           controlling their operations. The Fund considers convertible subordinated debentures to be

45
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                          Financial Statements

                                     September 30, 2005 and 2004

           equity investments because they exhibit sufficient characteristics of equity securities. For
           example, convertible subordinated debentures entitle the Fund to any dividends in the non-
           voting common stock into which it is convertible as if the Fund had converted the debentures
           into such stock prior to the declaration of the dividend.

     (h)   Internal-Use Software
           Internal-use software represents the completed phases of the New Markets Tax Credit (NMTC)
           processing software, Financial Assistance Program processing software, the Customer
           Information Mapping System, and the Community Investment Impact System (CIIS) (net of
           accumulated amortization) placed in service during the year. The NMTC and Financial
           Assistance processing software automates the award application submission process. CIIS is a
           web-based data collection system for CDFI’s and Community Development Entities. The
           Customer Information Mapping System provides applicants with web-based software to
           geocode addresses, map census tracts and counties, and determine the funding eligibility of
           census tracts and counties under CDFI’s various programs.
           The software is amortized using the straight-line method over the estimated useful life of seven
           years.

           Internal-use software in development represents costs incurred for various software
           development projects not yet placed in service.
     (i)   Awards Payable
           CDFI Program grant expense is recognized and awards payable are recorded when the fund is
           made aware, in writing, that the awardee has met the conditions required for payment and the
           Fund approves a grant disbursement to be made. BEA Program grant expense is recognized
           and awards payable are recorded when the Fund approves the BEA award to be made (i.e. at
           the time the funds are obligated).

           The current and long-term portions of awards payable represent amounts estimated to be paid
           within the next twelve months (current portion) and thereafter (long-term portion) based on
           prior award payment experience.

     (j)   Retirement Plans
           CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the
           Federal Employees’ Retirement System (FERS). The FERS was established by the enactment
           of Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover
           most employees hired after December 31, 1983.

           Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS
           and Social Security or remain in CSRS.

           All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
           participating in the FERS, a TSP account is automatically established, and the Fund makes a
           mandatory contribution of 1% of employees base salary, to this account. In addition, the Fund
           makes matching contributions ranging from 1% to 4% for FERS eligible employees who



46
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                          Financial Statements

                                      September 30, 2005 and 2004

           contribute to their TSP account. Matching contributions are not made to the TSP accounts
           established by CSRS employees.

           FERS employees and certain CSRS reinstatement employees are eligible to participate in the
           Social Security program for retirement. In these instances, the Fund remits the employer’s
           share of the required contribution. For CDFI Fund employees participating in CSRS, the Fund
           makes matching contributions to CSRS equal to 8.51% of base pay.

     (k)   Annual, Sick and Other Leave
           Annual leave and compensatory leave is accrued as a liability when earned by the employee,
           and the accrual is reduced as leave is taken. The balance in this accrued liability account is
           computed using current pay rates. Sick leave and other types of non-vested leave are expensed
           as the leave is taken.

     (l)   Debt
           Debt represents borrowings payable to the Treasury Department that were made to fund direct
           loans made by the CDFI Program. Principal repayments to the Treasury Department are
           required to be made based on the collections of loans receivable.

     (m)   Contingencies
           The Fund may be a party in various administrative proceedings, legal actions, and claims
           brought by or against it. The Fund’s management and legal counsel are unaware of any
           contingencies that would materially affect the Fund’s financial position or results of
           operations.

     (n)   Revenue and Financing Sources
           The Fund receives the majority of its funding through appropriations from the U.S. Congress.
           The Fund receives two-year appropriations that may be used, within statutory limits, for
           operating expenses. Appropriations are recognized as revenues at the time the Fund’s grants
           are recorded as expenses, and when administrative expenses and provision for bad debts
           covered by budgetary resources are incurred.

           Occasionally, the Fund receives dividends on its equity investments and may use those funds
           for operating expenses.

           Additional revenue is obtained from interest received on direct loans to the public and on
           uninvested funds in the direct loan financing account held by the Treasury Department.

     (o)   Tax Status
           The Fund, as a government entity, is not subject to federal, state, or local income taxes and,
           accordingly, no provision for income tax is recorded.

     (p)   Use of Estimates
           The preparation of the financial statements requires management to make estimates and
           assumptions that affect the reported amounts of assets and liabilities, disclosures of


47
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                            Financial Statements

                                       September 30, 2005 and 2004

            contingencies at the date of the financial statements and the reported amounts of revenues and
            expenses during the period. Actual results could differ from these estimates

(2)   Fund Balance with Treasury
      Fund balance with Treasury as of September 30, 2005 and 2004 consisted of the following
      components:
                                                                           2005              2004

                        Available                                  $        4,033,289        3,063,094
                        Obligated                                          64,393,783       92,558,505
                        Expired                                             3,650,717        3,247,645
                                                                   $       72,077,789       98,869,244


      Fund balance with Treasury includes appropriated and borrowed funds available to pay liabilities and
      to finance authorized award and purchase commitments.

(3)   Investments
      Investments relate to capital provided to CDFI Program awardees. Investments consist of the
      following as of September 30, 2005 and 2004:
                                                                             2005              2004

      Investments at Cost
        Non-voting equity securities                                   $   26,555,420       27,005,479
        Convertible debt securities                                         2,573,882        2,573,882
        Secondary capital securities                                        5,000,000        4,200,000
        Limited partnership interest                                        3,647,220        2,683,722
        Certificates of deposit                                               225,000          690,000
             Investments at cost                                           38,001,522       37,153,083
      Unrealized losses, net
        Non-voting equity securities                                       (2,500,000)       (2,350,000)
        Limited partnership interest                                         (897,220)         (400,000)
             Total unrealized losses, net                                  (3,397,220)       (2,750,000)

              Investments at fair value                            $       34,604,302       34,403,083


      Non-voting equity securities consist of non-voting common stock held in for-profit CDFI Program
      awardees (preferred non-voting stock is held in two awardees).

      Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As
      of September 30, 2005 and 2004, one debenture of $2 million matures January 2048 with the option
      to convert into 200,000 shares of non-voting class B common stock at a $10 per share conversion

48
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                            Financial Statements

                                        September 30, 2005 and 2004

      price. The other debenture of $573,882 as of September 30, 2005 and 2004, matures December 2013
      with an option to convert to 1,434,706 shares of non-voting class E common stock.

      The Limited Partnership interest consists of a Class B limited partnership interest in Sustainable Jobs
      Fund, LP, an interest in Pacific Community Ventures (acquired during FY 2005), and three units of
      preferred interest in Shorebridge Capital LLC.

      Secondary capital securities consist of investments that cannot be redeemed prior to scheduled
      redemption dates.

      Certificates of deposits are investments in federal credit union awardees, and have interest rates
      ranging from 0 percent to 2 percent.

      Investments included as current assets represent certificates of deposit that mature within the next
      twelve months.

(4)   Debt
      Debt consists of amounts borrowed from the U.S. Treasury Department and included the following
      activity for the years ended September 30, 2005 and 2004:
                                                                              2005              2004

      Beginning balance                                             $       37,222,530       33,800,951
      New borrowings                                                         6,347,451        5,276,187
      Repayments                                                            (3,008,090)      (1,854,608)
                       Ending balance                               $       40,561,891       37,222,530


      The earliest principal repayment due date to Treasury is September 30, 2007. Principal payments on
      this debt as of September 30, 2005 are as follows:
                        2006                                            $              —
                        2007                                                      142,617
                        2008                                                      254,154
                        2009                                                    1,901,364
                        2010                                                    2,632,434
                        Thereafter                                             35,631,322
                                                                        $      40,561,891


      During fiscal year 2005, the Fund borrowed $5,828,910 to finance current year direct loan
      commitments and $518,541 to meet annual interest payments due to the Treasury Department, at
      interest rates ranging from 3.55% to 5.47%, depending on maturity dates or risk categories. The
      Fund repaid principal to the U.S. Treasury in the amount of $3,008,090. The $3,008,090 was
      composed of collections of direct loans receivable and a deobligation of a previous loan obligation.




49
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                          Financial Statements

                                      September 30, 2005 and 2004

      During fiscal year 2004, the Fund borrowed $4,715,377 to finance current year direct loan
      commitments and $560,810 to meet annual interest payments due to the Treasury Department, at
      interest rates ranging from 3.93% to 5.47%, depending on maturity dates and risk categories. The
      Fund repaid principal to the U.S. Treasury in the amount of $1,854,608 which consisted of
      collections of direct loans receivable and a deobligation of a previous loan obligation.

      Interest paid for the years ended September 30, 2005 and 2004 was $2,362,511 and $2,237,342,
      respectively.


(5)   Commitments
      (a)   Operating Leases
            The Fund leases office space from the General Services Administration in the Homer Building
            located in Washington, D.C. under the terms of an operating lease, which expires in January
            2007. The Fund also leased equipment under the terms of an operating lease. The total
            operating lease expense was $1,115,410 and $1,160,071 for the years ended September 30,
            2005 and 2004, respectively.

            Future minimum payments due under these operating leases as of September 30, 2005 were as
            follows:
                                                          Minimum lease
               Fiscal year                                  payments

            2006                                    $         1,138,524
            2007                                                337,577
            2008                                                 29,654
            2009                                                 16,874
                                                    $         1,522,629


      (b)   Award and Purchase Commitments
            As of September 30, 2005 and 2004, award commitments amounted to $47,836,695 and
            $69,946,853, respectively. Award commitments relate to awards which were approved by
            Fund management but not disbursed as of the end of the year. Award commitments relating to
            the CDFI Program are not considered liabilities at year-end because the awardees have not met
            the conditions required for payment. Purchase commitments were $10,688,518 and
            $10,167,955 as of September 30, 2005 and 2004, respectively. These commitments relate to
            the unexpired portion of contracts, and purchase orders relating to goods and services not yet
            received.




50
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                             Financial Statements

                                         September 30, 2005 and 2004

(6)   Net Position
      Net position as of September 30, 2005 and 2004 consisted of the following:
                                                                           2005              2004
      Unexpended appropriations:
        Unobligated available                                       $    16,818,726    $    15,438,871
        Unobligated expired                                               3,650,717          3,247,645
        Undelivered orders                                               46,286,410         70,716,649
                        Total unexpended appropriations                  66,755,853         89,403,165
      Cumulative results of operations                                   40,776,882         35,753,860
                                                                    $   107,532,735    $   125,157,025
(7)   Imputed Financing

      Imputed financing represents specific expenses relating to the Fund paid for by another Federal
      organization. The components of imputed financing for the years ended September 30, 2005 and
      2004 are as follows:
                                                                          2005             2004

      Pension Cost (CSRS Retirement Plan)                           $      49,684           35,702
      Pension Cost (FERS Retirement Plan)                                   2,130           17,315
      Health Insurance (Health Benefits Program)                          213,280          191,165
      Life Insurance (Group Life Insurance Program)                           637              583
      Audit Fees                                                           80,028          116,552
                        Total                                       $     345,759          361,317

(8)   Other Changes in Net Position
      Other changes in net position for the years ended September 30, 2005 and 2004 were as follows:
                                                                           2005              2004

      Increases:
        Appropriations received                                     $    55,522,000         61,000,000
        Appropriation for Subsidy Reestimate                                479,796          1,404,298
      Decreases:
        Appropriation Cancelled                                          (1,891,505)        (1,438,999)
        Appropriation Rescinded                                            (444,176)          (359,900)
        Appropriation Used                                              (69,868,092)       (49,293,451)
        Downward Reestimate Adjustment                                     (497,891)        (2,753,376)
                     Total other changes in net position, net       $   (16,699,868)         8,558,572




51
                                                                                                                                                APPENDIX A


                       FY 2005 CDFI Fund Award and Allocation Activities
                                                                                                                                     Allocation of New
                               FA Awards            TA Awards          NI Awards          BEA Awards           Total Awards         Markets Tax Credits (1)
  STATE                     Number  Amount       Number Amount      Number Amount      Number  Amount        Number    Amount       Number       Amount
Alabama
Alaska
Arizona                       1      $207,000      1      $70,000     3     $276,000                           5        $553,000
Arkansas                                                              1      $70,000                           1          $70,000
California                    3     $3,752,858     3     $161,060     1      $80,000        1    $500,000      8       $4,493,918      5         $211,000,000
Colorado                      2      $696,000      2     $105,000                                              4        $801,000       2         $130,000,000
Connecticut                   1      $950,000                                                                   1       $950,000
Delaware                                                                                    1    $291,764      1        $291,764
District of Columbia          1      $348,323      1      $46,100                           2    $624,500      4       $1,018,923      2         $100,000,000
Florida                                            1      $45,000                                              1          $45,000
Georgia                                            1      $42,000                           1    $500,000      2        $542,000       2         $115,000,000
Hawaii                                             1      $42,884                           1    $155,250      2        $198,134       1          $28,000,000
Idaho                         1      $256,800                                                                   1       $256,800
Illinois                      1     $1,398,750                                             12   $1,833,000     13      $3,231,750      2          $55,000,000
Indiana
Iowa
Kansas                                                                                      2    $517,400      2        $517,400
Kentucky                      2     $1,156,663     1      $75,000                           7    $510,741      10      $1,742,404      4          $67,000,000
Louisiana                                          1      $50,000                                               1         $50,000      3         $135,000,000
Maine                         2     $1,130,000                        1     $525,000                           3       $1,655,000
Maryland                      2     $1,572,750                                                                  2      $1,572,750      2         $140,000,000
Massachusetts                 1     $1,398,750                                              2    $920,000      3       $2,318,750      1          $54,000,000
Michigan                      1      $950,000      2      $71,560     2     $189,000                           5       $1,210,560      1          $60,000,000
Minnesota                     2     $1,077,800     4     $245,369                           1    $395,000      7       $1,718,169      1         $100,000,000
Mississippi                   1     $1,398,750                                              1     $18,000      2       $1,416,750
Missouri                                           1      $49,500                           1     $66,000      2        $115,500
Montana                       2      $600,000      2      $93,530     2     $170,400                           6        $863,930
Nebraska                                           1      $47,500                                               1         $47,500
Nevada                                                                                      1    $328,200      1        $328,200
New Hampshire
New Jersey                                         1      $49,260                           1    $130,500      2        $179,760       1          $50,000,000
New Mexico                    1      $513,000                                                                   1       $513,000
New York                      9     $6,527,620     6     $239,454                           3    $857,200      18      $7,624,274      5         $308,000,000
North Carolina                2     $1,646,900                        2     $272,000        4   $1,016,000     8       $2,934,900      2         $185,000,000
North Dakota                                                          1     $150,000                           1        $150,000
Ohio                          2     $1,190,000     3     $143,595                           3     $23,250      8       $1,356,845      1          $52,000,000
Oklahoma                                                              2     $690,880        1     $12,000      3        $702,880       2          $90,000,000
Oregon                        2     $1,675,250                                              1    $234,000      3       $1,909,250      1          $50,000,000
Pennsylvania                  2     $1,118,500     2     $150,000                           1     $77,850      5       $1,346,350
Puerto Rico
Rhode Island
South Carolina                                                                              3    $117,812      3        $117,812
South Dakota                  3     $1,207,810                        2     $165,000                           5       $1,372,810
Tennessee                                                                                   2    $267,750      2        $267,750       1          $17,000,000
Texas                                              2      $83,600                           1    $500,000      3        $583,600
Utah                                                                  2     $225,000                           2        $225,000
U.S. Virgin Islands
                                                                                                                                                         APPENDIX A


                   FY 2005 CDFI Fund Award and Allocation Activities
                                                                                                                                              Allocation of New
                                 FA Awards                TA Awards            NI Awards            BEA Awards          Total Awards         Markets Tax Credits (1)
  STATE                       Number  Amount           Number Amount        Number Amount        Number  Amount       Number    Amount       Number       Amount
Vermont                                                  2       $112,055                                               2        $112,055
Virginia                         1         $225,400                                                                     1        $225,400       1          $35,000,000
Washington                       2         $450,000      2        $80,150     2       $220,000                          6        $750,150
West Virginia                                            1        $49,803                                               1          $49,803
Wisconsin                        1        $1,398,750                          1       $420,000                          2       $1,818,750      1          $18,000,000
Wyoming                                                                                                                 0               $0

Amounts Awarded to FY 2005
 Funding Round Applicants        48     $32,847,674      41   $2,052,420      22    $3,453,280     53    $9,896,217    164    $48,249,591      41      $2,000,000,000



(1) Consists of New Markets Tax Credit (NMTC) allocatees headquartered in these states.
Amounts shown represent amount of equity to be raised.
                                                                                                                APPENDIX B

                        Total Fund Awards From Inception
                                                       Native Initiative                      Total Awards          NMTC
  State                FA Awards     TA/SECA Awards      Awards (1)         BEA Awards       From Inception     Allocations (2)
Alabama                     $145,000        $475,500                   $0        $615,075         $1,235,575          $40,000,000
Alaska                    $7,912,500        $306,000             $281,250               $0        $8,499,750          $40,000,000
Arizona                   $5,806,500        $217,458           $1,303,500         $809,288        $8,136,746         $235,000,000
Arkansas                  $9,000,000        $158,514              $70,000       $4,575,223       $13,803,737          $15,000,000
California               $48,054,858      $1,918,727             $459,906      $35,457,897       $85,891,388         $672,000,000
Colorado                  $7,446,300      $2,712,358             $120,000       $2,116,915       $12,395,573         $130,000,000
Connecticut               $2,883,500        $500,389                   $0         $373,205        $3,757,094                    $0
Delaware                    $645,000        $122,000                   $0       $2,751,000        $3,518,000          $50,000,000
District of Columbia     $10,610,983        $758,800                   $0       $5,899,454       $17,269,237         $648,000,000
Florida                  $15,937,000      $1,256,618                   $0       $8,491,003       $25,684,621          $15,000,000
Georgia                   $3,783,900        $216,500                   $0       $5,861,221        $9,861,621         $154,000,000
Hawaii                    $1,000,000        $533,684             $263,121       $1,069,199        $2,866,004          $28,000,000
Idaho                     $2,546,800        $200,000                   $0               $0        $2,746,800                    $0
Illinois                 $31,477,816      $1,327,083                   $0      $29,834,896       $62,639,795         $286,050,000
Indiana                   $2,308,000        $362,500                   $0       $1,500,651        $4,171,151          $81,000,000
Iowa                      $3,990,000        $265,050                   $0         $508,500        $4,763,550          $44,700,000
Kansas                    $1,903,000        $240,504              $25,000       $2,739,832        $4,908,336                    $0
Kentucky                 $13,998,163        $613,100                   $0       $4,323,036       $18,934,299         $153,500,000
Louisiana                 $1,210,000        $386,050                   $0       $1,934,109        $3,530,159         $422,500,000
Maine                    $11,473,856        $562,361           $1,380,000       $1,335,727       $14,751,944         $129,000,000
Maryland                 $14,688,360        $617,246             $176,040       $2,330,221       $17,811,867         $646,000,000
Massachusetts            $18,374,200      $2,569,345                   $0       $4,784,405       $25,727,950         $352,000,000
Michigan                  $6,115,000        $260,493             $354,000       $1,226,686        $7,956,179          $87,000,000
Minnesota                $16,045,300        $826,769           $2,724,033       $1,754,601       $21,350,703         $448,000,000
Mississippi              $11,226,250        $126,500                   $0       $2,029,857       $13,382,607          $15,000,000
Missouri                  $1,310,109        $148,500                   $0       $3,663,865        $5,122,474          $52,000,000
Montana                   $1,446,800        $444,030             $716,600         $315,962        $2,923,392                    $0
Nebraska                    $350,000        $413,843             $265,000          $97,832        $1,126,675          $23,000,000
Nevada                            $0        $266,500                   $0         $339,200           $605,700                   $0
New Hampshire             $7,500,000         $93,425                   $0       $1,132,000        $8,725,425                    $0
New Jersey                $9,265,000        $706,469                   $0       $4,247,130       $14,218,599         $190,000,000
New Mexico                $6,603,500         $97,000                   $0         $185,705        $6,886,205                    $0
New York                 $68,976,792      $6,302,286             $184,000      $47,355,326      $122,818,404       $1,133,000,000
North Carolina           $24,536,900      $1,308,745             $429,450      $28,310,498       $54,585,593         $410,000,000
North Dakota                $635,000         $69,520             $281,700          $15,000        $1,001,220                    $0
Ohio                      $7,881,693        $992,875                   $0       $3,743,203       $12,617,771         $498,000,000
Oklahoma                  $1,668,500              $0           $1,220,880       $2,365,680        $5,255,060         $220,000,000
Oregon                    $5,051,250        $429,250                   $0       $4,678,348       $10,158,848         $246,500,000
                                                                                                                       APPENDIX B

                             Total Fund Awards From Inception
                                                              Native Initiative                      Total Awards          NMTC
 State                     FA Awards     TA/SECA Awards         Awards (1)         BEA Awards       From Inception     Allocations (2)
Pennsylvania                 $31,387,072      $3,397,986                      $0       $1,813,327       $36,598,385         $47,500,000
Puerto Rico                     $300,000        $115,000                      $0               $0           $415,000                   $0
Rhode Island                    $750,000        $389,900                      $0               $0        $1,139,900                    $0
South Carolina                  $500,000        $192,600                      $0         $786,783        $1,479,383                    $0
South Dakota                  $5,099,810        $582,000              $2,065,400         $562,500        $8,309,710                    $0
Tennessee                     $6,965,000        $150,100                 $95,000       $3,667,711       $10,877,811         $35,250,000
Texas                        $14,484,470      $3,310,161                      $0      $15,112,992       $32,907,623         $37,000,000
Utah                          $2,000,000        $392,500                $225,000         $120,000        $2,737,500        $100,000,000
U.S. Virgin Islands             $770,000              $0                      $0               $0           $770,000                   $0
Vermont                       $7,829,550        $490,055                      $0               $0        $8,319,605           $2,000,000
Virginia                      $3,635,400      $1,023,090                      $0          $23,000        $4,681,490         $71,000,000
Washington                    $6,801,250        $895,495              $1,509,800       $2,405,991       $11,612,536         $48,000,000
West Virginia                 $2,439,000        $331,768                      $0               $0        $2,770,768           $4,000,000
Wisconsin                     $8,729,450        $293,500                $797,130       $2,774,914       $12,594,994        $191,000,000
Wyoming                               $0              $0                $252,853               $0           $252,853                   $0

      TOTALS             $475,498,832       $40,370,147          $15,199,663       $246,038,968     $777,107,610       $8,000,000,000

(1) Native Initiative (NI) awards. Consists of awards made under all Native American Programs.

(2) Consists of New Markets Tax Credit (NMTC) allocatees headquarted in these states. Amounts shown represents amount
    of equity supported by tax credits.
                                                                                                 APPENDIX C
                                              GLOSSARY OF TERMS


Allocation (of Tax Credits)                                    Communities through their representation on any
                                                               governing board of the entity; and (c) has been certified
Under the New Markets Tax Credit Program, providing            by the Community Development Financial Institutions
a Community Development Entity with the authority to           Fund (the Fund) of the United States Department of the
give tax credits to investors in exchange for an               Treasury.
investment in the CDE.
                                                               Community       Development      Financial    Institution
Bank                                                           (CDFI)

Any organization engaged in any or all of the various          Community Development Financial Institution – a
functions of banking, i.e., receiving, collecting,             nongovernmental entity that meets the following
transferring, paying, lending, investing, dealing,             eligibility criteria and is certified by the CDFI Fund as
exchanging, and servicing (safe deposit, custodianship,        such: (i) it must have a primary mission of promoting
agency, trusteeship) money and claims to money both            community development; (ii) it must serve an eligible
domestically and internationally. In its more specific         investment area or targeted population; (iii) its
sense, the term bank refers to institutions providing          predominant business activity must be the provision of
deposit facilities for the general public, including insured   loans or certain equity investments; (iv) in conjunction
depository institutions. Banking institutions may be           with its loans or development investments, it must
classified into two broad groups: (1) commercial banks         provide activities and services that promote community
and their central banks; and (2) noncommercial bank            development         (financial    management     technical
institutions. Included in the latter group are such            assistance, financial or credit counseling, for example);
institutions as savings and loan associations, mutual          and (v) it must maintain accountability to residents of
savings banks, and credit unions. These institutions are       the investment area or targeted population through
often referred to as thrift institutions, although             representation on its governing board. Certain additional
commercial banks also provide savings and time deposit         eligibility criteria apply if the entity is a depository
accounts.                                                      institution holding company or an insured depository
                                                               institution. The CDFI Fund’s requirements for CDFI
Bank Enterprise Award (BEA) Program                            certification and eligibility are found at 12 CFR
                                                               1805.200.
The Bank Enterprise Award (BEA) Program provides
awards to insured depository institutions that increase        Community Development           Financial    Institutions
their level of activities in the form of loans, investments,   (CDFI) Fund
services, and technical assistance within distressed
communities. The program also provides financial               A wholly owned government corporation in the
assistance to CDFIs through grants, stock purchases,           Department of the Treasury, created to promote
loans, deposits, and other forms of financial and              economic revitalization and community development
technical assistance. In general, an award is made based       through investment in and assistance to CDFIs,
on the lender’s success in certain BEA Program-                including enhancing their liquidity. It was created by,
qualified activities that were projected in the application    and has the specific legal duties and responsibilities
for BEA funds. The BEA Program regulations are found           specified in, the Riegle Community Development and
at 12 CFR Part 1806.                                           Regulatory Improvement Act of 1994.

Community Development Entity (CDE)                             Community Investment Impact System (CIIS)

Community Development Entity – a duly organized                CIIS is a web-based system that collects and stores
entity treated as a domestic corporation or partnership        institution-level and transaction-level data from CDFIs
for federal income tax purposes that (a) has a primary         and CDEs.
mission of serving, or providing investment capital for,
Low-Income Communities or Low-Income Persons; (b)
maintains accountability to residents of Low-Income
Distressed Community                                          targeting of Hot Zones will take place primarily within
                                                              the Small Capitalization (SECA) Component of the
For the CDFI Program, a group of people living within a       CDFI Program. This is due to the greater number of
geographic area (or areas), including an Indian               awards (both technical and financial assistance) that can
reservation, that meet certain criteria of economic           be made to the smaller CDFIs, enabling a greater amount
distress. Determining factors include the percentage of       of CDFI presence in, and services to, Hot Zones, and the
the population living in poverty, median family income        potential to grow these CDFIs into larger organizations
levels, unemployment rates, the percentage of occupied        to better serve these distressed areas.
substandard housing, and/or the level of an area’s
population loss.                                              The Native American CDFI Assistance (NACA)
                                                              Program
For the BEA Program, a group of people living within a
geographic area (or areas), including an Indian               The Native American CDFI Assistance (NACA)
reservation, that meet certain criteria of economic           Program was introduced in FY 2004 and provides
distress. Determining factors include the percentage of       financial assistance awards to eligible Native American
the population living in poverty and rates of                 CDFIs to support their financing activities, as well as
unemployment.                                                 technical assistance awards to for existing Native CDFIs
                                                              and Native organizations seeking to become or create a
Equity                                                        CDFI. A Native American CDFI is defined as a CDFI
                                                              with greater than 50 percent of its activities directed to
The raising of capital by a corporation issuing or selling    Native American Communities. In FY 2005 it replaced
its stock (in contrast with “debt,” which is the raising of   the NACD and NATA Programs.
capital by issuing bonds or borrowing money).
                                                              The Native American CDFI Development (NACD)
Funding Round                                                 Program

Each application and award is identified with a funding       Replaced by the NACA Program in FY 2005, the Native
round that corresponds to the year a Notice of Awards         American CDFI Development (NACD) Program
Availability (NOFA) is issued. For example, the Fund          provided technical assistance grants to “sponsoring
issued three NOFAs that are identified as the 1996            organizations,” such as Tribes or entities primarily
Round, the 1997 Round, and the 1998 Round. A round is         serving Native American Communities, to help create
not tied to one fiscal year or one calendar year. In other    Native American CDFIs.
words, the Fund may make awards and obligations for a
round in the fiscal year after the issuance of the NOFA,      Native American Technical Assistance (NATA)
and obligations may be incurred in more than one              Component
appropriation and operating level for a given round.
                                                              Replaced by the NACA Program in FY 2005, the Native
Hot Zones                                                     American Technical Assistance Component was similar
                                                              to the NACD Program, the difference being that the
Hot Zones are areas with high levels of distress (i.e.,       NATA Component was limited to CDFIs and entities
Poverty Rate of at least 20% and the Median Family            proposing to become CDFIs. NATA grants were
Income at or below 80% of the Area Median Income,             provided as part of the Technical Assistance Component
with an Unemployment Rate that is at least 1.5 times the      of the CDFI Program.
national average.     The term identifies areas of the
greatest community development need, least banking            New Markets Tax Credit (NMTC) Program
services availability, and least Awardee coverage.
Business Hot Zones are counties and census tracts in          The New Markets Tax Credit (NMTC) Program
Metropolitan Statistical Areas (MSAs) ranked by level         provides an allocation of tax credits to Community
of unemployment, median family income, and poverty.           Development Entities (CDEs). The CDEs will in turn
Housing Hot Zones are counties and census tracts in           provide tax credits to private sector investors in
MSAs ranked by median family income, poverty, and             exchange for their investment dollars; investments
housing cost burden. Hot Zone counties and census             received by the CDEs will be used to make loans and
tracts in MSAs are grouped by state. CDFI Program             equity investments in low-income communities.
awards target those applicants serving Hot Zones. The
request for additional funding relating to the strategic
Qualified Equity Investment (QEI)                            Underserved Community

An investment in a CDE under the NMTC Program                These communities include the following:
meeting the following criteria: the investment proceeds         1) A specific geographic area called an Investment
are used by the CDE to make Qualified Low-Income                    Area;
Community Investments (QLICIs), the CDE designates              2) A specific community of people with
the investment as a QEI, and the investment is made by              demonstrated lack of access to credit, equity or
the CDE within 5 years from the date of their NMTC                  financial services called a Targeted Population);
allocation.                                                     3) Hot Zones, the most economically distressed
                                                                    subset of Investment Areas;
Qualified    Low-Income      Community       Investment         4) Low-Income Communities under the NMTC
(QLICI)                                                             Program; and
                                                                5) Distressed Communities under the BEA
1) An investment made by a CDE in, or loan to, any                  Program.
qualified active low-income community business; 2) the
purchase from a CDE of any such loan; 3) financial           Many Native American Communities also qualify as
counseling and other services to businesses in, and          underserved     communities.       “Native     American
residents of, low-income communities; and 4) any equity      Communities” are defined as any Native American,
investment in, or loan to, any CDE.                          Alaska Native or Native Hawaiian populations, lands or
                                                             Census-equivalent entities, with the exception of State or
Technical Assistance                                         Tribal Designated Statistical Areas.

Activities that enhance the capacity of an organization to   Underserved Markets
carry out its business and purpose, such as training of
management and other personnel; developing programs          A distressed community or a group of people or entities,
and loan or investment loan products; improving              not necessarily in one geographic area, that meets the
financial management and internal operations; and            CDFI Fund’s criteria of economic distress (see
enhancing an organization’s community impact.                Distressed Community above).
